<html>
<title> - FIELD HEARING TO CONSIDER THE EFFECT OF THE CORPS OF ENGINEERS' OPERATION OF THE APALACHICOLA-CHATTAHOOCHEE-FLINT AND ALABAMA-COOSA- TALLAPOOSA RIVER BASINS ON GEORGIA'S AGRICULTURAL COMMUNITY.</title>
<body><pre>[Senate Hearing 109-730]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-730

    FIELD HEARING TO CONSIDER THE EFFECT OF THE CORPS OF ENGINEERS' 
  OPERATION OF THE APALACHICOLA-CHATTAHOOCHEE-FLINT AND ALABAMA-COOSA-
                           TALLAPOOSA RIVER 
               BASINS ON GEORGIA'S AGRICULTURAL COMMUNITY

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON AGRICULTURE,
                        NUTRITION, AND FORESTRY

                          UNITED STATES SENATE


                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION


                               __________

                            OCTOBER 24, 2006

                               __________

                       Printed for the use of the
           Committee on Agriculture, Nutrition, and Forestry


  Available via the World Wide Web: http://www.agriculture.senate.gov












                    U.S. GOVERNMENT PRINTING OFFICE

31-435 PDF                  WASHINGTON : 2006
------------------------------------------------------------------
For sale by Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800;
DC area (202) 512-1800 Fax:  (202) 512-2250. Mail:  Stop SSOP, 
Washington, DC 20402-0001


















           COMMITTEE ON AGRICULTURE, NUTRITION, AND FORESTRY



                   SAXBY CHAMBLISS, Georgia, Chairman

RICHARD G. LUGAR, Indiana            TOM HARKIN, Iowa
THAD COCHRAN, Mississippi            PATRICK J. LEAHY, Vermont
MITCH McCONNELL, Kentucky            KENT CONRAD, North Dakota
PAT ROBERTS, Kansas                  MAX BAUCUS, Montana
JAMES M. TALENT, Missouri            BLANCHE L. LINCOLN, Arkansas
CRAIG THOMAS, Wyoming                DEBBIE A. STABENOW, Michigan
RICK SANTORUM, Pennsylvania          E. BENJAMIN NELSON, Nebraska
NORM COLEMAN, Minnesota              MARK DAYTON, Minnesota
MICHEAL D. CRAPO, Idaho              KEN SALAZAR, Colorado
CHARLES E. GRASSLEY, Iowa

            Martha Scott Poindexter, Majority Staff Director
                David L. Johnson, Majority Chief Counsel
              Vernie Hubert, Majority Deputy Chief Counsel
                      Robert E. Sturm, Chief Clerk
                Mark Halverson, Minority Staff Director

                                  (ii)




















                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing(s):

Field Hearing to Consider the Effect of the Corps of Engineers' 
  Operation of the Apalachicola-Chattahoochee-Flint and Alabama-
  Coosa-Tallapoosa River Basins on Georgia's Agricultural 
  Community......................................................     1

                              ----------                              

                       Tuesday, October 24, 2006
                    STATEMENTS PRESENTED BY SENATORS

Chambliss, Hon. Saxby, a U.S. Senator from Georgia, Chairman, 
  Committee on Agriculture, Nutrition, and Forestry..............     1
Isakson, Hon. John, a U.S. Senator from Georgia..................     3

                STATEMENTS PRESENTED BY REPRESENTATIVES

Bishop, Hon. Sanford D. Jr., a U.S. Representative from Georgia..     4
Westmoreland, Hon. Lynn A., a U.S. Representative from Georgia...     6

                                Panel I

Perdue, Hon. Sonny, Governor of Atlanta, Georgia.................     7

                                Panel II

Schroedel, Joseph, Brigadier General, South Atlantic Division 
  Commander, U.S. Army Corps of Engineers, Atlanta, Georgia......    12

                               Panel III

Gaymon, Mike, President and CEO, Columbus Georgia Chamber of 
  Commerce, Columbus, Georgia....................................    29
Singletary, Steven, Vice Chairman, Georgia Soil & Water 
  Conservation Commission, Blakely, Georgia......................    33
Timmerberg, Dick, Executive Director, West Point Lake Coalition, 
  LaGrange, Georgia..............................................    31
Webb, Jimmy, Flint River Water Council, Leary, Georgia...........    35
                              ----------                              

                                APPENDIX

Prepared Statements:
    Linder, Hon. John............................................    48
    Perdue, Hon. Sonny...........................................    50
    Gaymon, Mike.................................................    59
    Schroedel, Joseph............................................    61
    Singletary, Steven...........................................    66
    Timmerberg, Dick (with attachments)..........................    68
    Webb, Jimmy..................................................    89
Document(s) Submitted for the Record:
    Columbus Water Works, prepared statement.....................    91
    The Middle Chattahoochee Water Coalition, prepared statement.    94
    Southeastern Federal Power Customers, Inc., prepared 
      statement..................................................    96
    O.W. McGowan, Co-Chairman, West Point Lake Coalition, 
      prepared statement.........................................    99
    Jack Struble, West Point Lake Coalition, prepared statement..   100
    Eucle Vickery, Secretary, West Point Lake Coalition, prepared 
      statement..................................................   101



















 
    FIELD HEARING TO CONSIDER THE EFFECT OF THE CORPS OF ENGINEERS' 
  OPERATION OF THE APALACHICOLA-CHATTAHOOCHEE-FLINT AND ALABAMA-COOSA-
      TALLAPOOSA RIVER BASINS ON GEORGIA'S AGRICULTURAL COMMUNITY.

                              ----------                              


                            October 24, 2006

                                        U.S. Senate
          Committee on Agriculture, Nutrition, and Forestry
                                                  Columbus, Georgia
    The Committee met, pursuant to notice, at 9:30 a.m. at the 
RiverCenter, 900 Broadway, Columbus, Georgia, Honorable Saxby 
Chambliss, Chairman of the Committee, presiding.

OPENING STATEMENT OF HON. SAXBY CHAMBLISS, A U.S. SENATOR FROM 
  GEORGIA, CHAIRMAN, COMMITTEE ON AGRICULTURE, NUTRITION, AND 
                            FORESTRY

    The Chairman. This hearing has come to order.
    And I want to thank everyone for coming today to discuss a 
critically important issue, Georgia's water resources. I'd 
particularly like to start by thanking Steve Sweet, in 
particular, the technical director of the RiverCenter. What a 
gorgeous facility. This is my first time in this auditorium, 
and this is really something special. And I know the folks here 
in Muscogee County, particularly, know they have something 
special here.
    I'd like to thank Steve and all of his staff. They've been 
a tremendous help in coordinating all the logistics for us. 
It's because of Steve's hard work in making this hearing 
possible that we're able to meet in this wonderful facility. 
So, again, to Steve and all of the staff here, we thank you 
very much.
    I'm also pleased to have my friends and colleagues from 
Georgia's Congressional Delegation join us today. We invited 
all of the Delegation to come. Senator Isakson and I had one of 
these hearings previously in Gainesville, which he chaired, and 
we had Nathan Deal there with us that day. Today, I'm very 
pleased to have my good friend and colleague, Senator Isakson 
here again. We also have Congressman Westmoreland here, 
Congressman Sanford Bishop, and I know that Congressman Phil 
Gingrey is on the way. So, gentlemen, thank you all for being 
here.
    These river systems that cross Congressional Districts 
affect many citizens in our state, so I'm particularly pleased 
that these folks could join us. Congressman Linder wanted to 
join us but was unable to rearrange his schedule; however, he 
has a written statement he would like to submit for the record, 
and his statement will be made a part of the record in the 
appropriate place.
    As I said, in August of this year, Senator Isakson and I, 
along with Congressman Deal, held a hearing in Gainesville very 
similar to the one that we're holding today. At that hearing, 
we heard from homeowners, economic development officials, and 
local government officials regarding their needs from the 
Alabama-Coosa-Tallapoosa and Apalachicola-Chattahoochee-Flint 
River Basins.
    Well, that hearing, folks, was mainly on the issues 
relative to Lake Lanier. We promised all the folks here in this 
part of the state that we would be holding a hearing downstream 
as well because you have a stake in this matter that is just as 
strictly important as the folks upstream. We're looking forward 
to hearing directly from you about the various needs you have 
for these lakes and rivers.
    This hearing offers a unique opportunity because you're 
going to hear from the Corps of Engineers regarding their 
operation of these systems and why things may not be exactly as 
each one of us would like for them to be.
    I'm eager to hear today from Governor Perdue about the 
progress he's made with Governors Riley and Bush from Alabama 
and Florida and getting the three governors to agree on new 
water allocations between the three states that rely on the ACT 
and the ACF River systems. We all heard a great deal about the 
Tristate Water Wars, and we all know that there are very 
complex issues involved. Although we're a long way from a 
resolution, the fact that these governors are talking face-to-
face and not via court papers is a good sign.
    And let me just say that Senator Isakson and I have had to 
have a number of meetings with the Corps of Engineers as well 
as the Secretary of the Army and Governor Perdue relative to 
moving forward with some discussion towards a resolution, and 
were it not for the leadership of Governor Perdue, we would not 
be where we are in that process today. Both before the Federal 
Court that was positive decision from Georgia's perspective 
came down the early part of this year as well as after that 
court decision, he has been trying to make progress on this 
issue. I want to thank him for his leadership and I look 
forward to hearing from you today.
    Also, I'm eager to hear from Brigadier General Joe 
Schroedel, who is the new Commander of the U.S. Army Corps of 
Engineers, South Atlantic Division. I hope General Schroedel 
can tell us today about the progress they made in updating the 
water control manuals and shed some light to our folks as to 
why the systems are currently being operated the way they are.
    Now, let me just say that Senator Isakson and I had the 
opportunity to visit with General Schroedel before this meeting 
this morning, and I'm impressed. We finally, folks, have 
somebody who not only will have a vision as to what we need to 
do but is willing to make some of the hard enough decisions and 
move this issue forward. I'm impressed with the comments that 
he's already made relative to movement, and I look forward to 
his statements a little later on.
    Finally, on our third panel, we'll hear from Dick 
Timmerberg from the West Point Lake Coalition, Mike Gaymon with 
Greater Columbus Chamber of Commerce, Steve Singletary with 
Georgia Soil & Water Conservation Commission, and Jimmy Webb 
with the Flint River Water Council. These gentlemen will 
represent a variety of interests from recreation to economic 
development to conservation and agriculture interests in 
Georgia's water resources.
    Although we do not have a witness here today to speak of 
it, I want to make sure that I make note of the fact that we 
have two important ports in Georgia--one in Bainbridge and one 
right here in Columbus--that are also impacted by the operation 
of the ACT and the ACF River systems.
    I visited with folks in Bainbridge the other day, and I 
talked numerous times with folks here in Columbus relative to 
the issues that are involved with both of those ports, and rest 
assured that we have the best interest of those ports in mind 
as we go through this process, I want to make sure that 
everybody knows that we are keenly aware of the important role 
that these ports play in commerce and navigation needs and of 
the considerable impact they have on the west and southwest 
parts of our state. A number of industries and jobs that can be 
supported by these river systems. It's important that all of 
the needs from these systems are noted as we assess not only 
modern day uses but modern day needs.
    Because our witness panel today is limited, I want to be 
sure that folks know that the official record for this hearing 
will remain open for five business days and that any--I 
emphasize that; any interested party may submit written 
testimony to be included in the record. I want to thank all of 
our witnesses for being with us today, and I look forward to 
their testimony.
    At this time, I'd like to first turn to my colleague, my 
good friend, and one of the great leaders of the United States 
Senate, Senator Isakson, for any comments he wishes to make.

                 STATEMENT OF HON. JOHN ISAKSON

    Senator Isakson. Well, thank you very much, Senator 
Chambliss, and thank you Chairman, will be conducting this 
hearing today.
    I'm pleased to join you for the second time. We started 
this, as he said, in Gainesville at the Riverside Academy and 
had a hearing in the month of August, which General Walsh, who 
has been the southeastern commander, testified, and we had 
great participation. I know we'll have great participation with 
that today.
    I welcome the Governor, who has just stepped in, and after 
all of the things the Senator said, had it not been for his 
leadership in engaging Governor Riley in Alabama in the 
beginning, civil discussions on future use of the ACF-ACT 
basins, we would be in a quagmire today. And his leadership has 
shown--proven he and Riley are talking, and that's one of the 
fundamental foundations to ultimately have a successful 
conclusion.
    I'm very pleased that Congressman Westmoreland, Congressman 
Gingrey, and Congressman Bishop are joining us today because 
these issues are important to the entire Congressional 
Delegation.
    General Schroedel, I have to tell you; I had some prepared 
remarks about the issues, and it was after talking to you for 
20 minutes, you're my kind of guy. And I think everybody here 
is going to be really pleased to hear what General Schroedel, 
who has come to take over this committee. He has a can-do 
attitude. He listens. He wants to know what's on people's minds 
and emulates the deliverer. That's exactly what we've needed.
    There are three things I'm going to be looking for from the 
General and from the Corps because there are three important 
ingredients, I think, to put this real problem behind us and 
resolve it for the long-term best interest of the three states 
and all of the people of Georgia.
    Number one, we have an assurance from General Walsh and 
from Secretary Harvey of the Army that beginning in January of 
2007, the Corps will begin what has been postponed for years, 
and that is a new water control plan. It is absolutely 
essential that a 50-year-old water control plan be updated to 
reflect the State of Georgia and its population of almost 10 
million people and the needs and diversity of all of the 
Chattahoochee River basin.
    Secondly, an acknowledgement that the Interim Operational 
Plan, in which we currently are working, is an operational plan 
that's basically a de-facto water control plan based on the 
environmental species issue. And it's very important that all 
the issues that affect the basin and the water supply be 
addressed in a comprehensive water control plan.
    Lastly, there are conflicting interests; environmental 
interests, business interests, stewardship for the environment, 
recreation, all the things that water engages. I do not believe 
that these interests are mutually exclusive. I think they can 
be inclusive. And I know from reading General Schroedel's 
testimony with regard to the various priorities of the use of 
water, he takes from--he takes a very priority approach to see 
to it that all the concerns are equally invested and equally 
studied and equally addressed.
    Lastly, I hope the General will address the requests of the 
folks around West Point Lake in terms of the winter pool level 
increasing two feet. I know the Corps was asked to look at the 
possibility of doing that, raising the winter pool from 628 to 
630, and I know the people from West Point Lake and LaGrange 
would be happy to hear a response from the General with regard 
to that issue.
    But, lastly, I want to reaffirm what I said before. I want 
to thank my colleagues for joining me for this important issue, 
thank Saxby for chairing and our Governor for his leadership, 
and I want to welcome General Schroedel to Georgia and to the 
southeast. We look forward to his enlightened leadership on 
this critical issue for us.
    The Chairman. Thank you. Congressman Bishop.

            STATEMENT OF HON. SANFORD D. BISHOP, JR.

    Mr. Bishop. Good morning, and thank you very much. I'd like 
to thank you, Senators Chambliss and Isakson, for holding this 
very important hearing on the Army Corps of Engineers Operation 
of the Apalachicola-Chattahoochee-Flint and the Alabama-Coosa-
Tallapoosa River Basins on Georgia's Agricultural Community.
    I want to certainly welcome all the community and my 
colleagues, especially to the Second Congressional District. 
You are located in the Second Congressional District, and this 
is indeed God's country.
    I also want to take an opportunity to welcome the Governor 
to the Second Congressional District of Columbus to this 
hearing and thank him for the great work that he is doing in 
the interest of the water for the people of the State of 
Georgia.
    And, certainly, we want to welcome General Schroedel. We 
welcome you and look forward to a wonderful working 
relationship, which we have had before on many projects that 
are of mutual interest.
    Today, we'll consider an important issue that are reasons 
for our economic, agricultural, and recreational quality of 
life; our water usage from and the levels of our river basins. 
As it's well-known, recently, the Corps of Engineers mistakenly 
released tens of billions of gallons of water from Lake Lanier 
to, just a possible, drought and conditions in Florida 
endangering the Gulf sturgeon and some species of protected 
mussels in our neighboring states. Now, this action, which was 
undertaken pursuant to the Endangered Species Act, prompted a 
lawsuit against the Corps over how our water resources are 
managed.
    At issue are the levels of which our four water bodies are 
set; Lake Lanier, West Point, Walter F. George, and Lake 
Seminole all on the Chattahoochee River. Recently, the Corps 
received some warnings by Governor Perdue and the Georgia 
Environmental Protection Division that Lanier is too low. Now, 
the water is--should be up to 537 million gallons of water 
daily to more than 3 billion left to Atlanta. As a result of 
the mistaken release, the state has activated a regional 
document sponsored by the state's mitigation protecting 
responsibly to manage our precious water resources.
    Now, the Corps has the responsibility to provide for and to 
the management of our water needs. The Congress has oversight 
over the Corps of which is what this hearing is all about.
    Our natural resources are precious. We have a 
responsibility to be good stewards in our individual 
capacities. So while we love our mussels and sturgeon, our 
human needs must take precedence here. And with solid planning 
and water management, notwithstanding as far as the Interim 
Operations Plan to manage the ACF basin and protecting 
endangered species, we ought to be able to balance these needs 
without the needs of more water than is necessary for our 
reservoir.
    I share the deep concern of my colleagues in Congress and 
in the State of Georgia including Governor Perdue as the Corps' 
apparent mismanagement of these important resources, and I'm 
also deeply concerned that the Corps has been unresponsive to 
the concerns raised by the Governor, leaving us with no 
alternatives but to seek legal action to protect the resources.
    The fact is that the Corps implemented that Interim 
Operations Plan, but without the public not being on notice, it 
was undertaken without studying for effects, including the 
devastating effect of the low levels they're having on 
recreational boating, fishing, and of course, the local 
counties as well as the eventual agricultural usage.
    While we have taken the Corps to task, I must hasten to 
commend and thank the Corps for its more recent cooperation on 
issues with Lake Seminole, Tybee Creek project, the dam project 
right here in Columbus, and the establishment of a community 
council to work with the Corps and the communities in the Lake 
Seminole and Lake Walter F. George areas to improve relations 
and customer service there on both those bodies.
    As a member of Congress, I am very, concerned about the 
impact, but I look forward to this important hearing addressing 
these important issues so that we can arrive at a responsible 
and sustainable water management plan with good cooperation 
with the Corps and all of the communities that are affected by 
these very, very important water basins.
    The Chairman. Thank you. Congressman Westmoreland.

             STATEMENT OF HON. LYNN A. WESTMORELAND

    Ms. Westmoreland. Thank you, Senator Chambliss, and thank 
you for having us here. And thanks to Senator Isakson and my 
friend Sanford Bishop and Governor Perdue for being here also.
    General Schroedel, this is a problem that seems to have 
been created by us tying our hands to do common-sense things, 
and I'm glad to hear from hearing these Senators that you seem 
to be a common-sense kind of guy.
    We have to understand that when the Corps implemented a 
plan for the Apalachicola-Chattahoochee-Flint River system that 
that plan was never completed, and West Point Lake is probably 
taking on more responsibility for water needs than it should 
have because there was a system of lakes that were actually 
never built.
    When this lake was built, it brought about great economic 
recreational water storage ability to the whole system. And, 
General, we're going to look to you to tell us what we need to 
do to untie your hands to do the right thing for this entire 
region. The City of Columbus, the City of LaGrange; Phoenix 
City, Alabama; West Point, Georgia; cities depend on the flow 
of water. We have businesses on both sides of the river that 
need to make sure they have an appropriate flow.
    The lake level at West Point is very important to this 
whole region as far as the economics that it provides, and so 
we're looking forward to your leadership in letting us know how 
we can help you solve this situation.
    And, Governor, I want to thank you for your leadership 
with--of the governance in trying to resolve this without 
lawyers. And you and I have talked about this before, and we 
understand that a common-sense approach, a gentleman's 
agreement between people, is much more effective than the 
costly and lengthy court battles that come out of this.
    So, Senator, I look forward to hearing all of the panels 
and getting some answers to our questions. Thank you.
    The Chairman. Great. Thank you. And I understand 
Congressman Gingrey is on the way, and we'll certainly give him 
an opportunity to make some comments, but obviously, we've now 
been joined by Governor Sonny Perdue.
    Governor, welcome. We enjoyed very much your presentation 
in Gainesville, which I alluded to earlier. As I told the 
audience in my opening comments, and Senator Isakson reiterated 
them that without your leadership and moving this ball down the 
court, we simply wouldn't be where we are today.
    I want to make sure that everybody understands as far as 
the leadership from the highest level in all three states, you 
have been the one to really be up front and to try to make sure 
that we come to a good common-sense resolution that is 
ultimately a benefit to all three states. It's a very complex 
issue.
    We thank you for taking the time out of what I know is a 
somewhat busy schedule that you have over the next couple of 
weeks here. We appreciate you being here today, and we look 
forward to your comments, Governor.

      STATEMENT OF HON. SONNY PERDUE, GOVERNOR OF GEORGIA

    Governor Perdue. Thank you, Mr. Chairman. After hearing all 
of your opening comments, we'd probably all be better served 
with a hard-laying hand for me and concluding my remarks, but 
you probably suspect I won't do that.
    But thank you all and thank the Committee on Agriculture, 
Nutrition, and Forestry for allowing and conducting this 
hearing today on this very important issue. I'd like to thank 
the Chairman of that Committee, Saxby Chambliss, as well as 
Senator Isakson and the hometown boy, Sanford Bishop, 
Congressman, thank you, and Congressman Westmoreland, as well 
as your interest in this whole river basin area. I know it 
affects your districts as well as it does all of Georgia, and I 
thank you all for giving us the opportunity to talk about this.
    I want to begin by really just reiterating things that we 
all know; simple things. But water is a life resource. It's a 
fundamental part of our lives. And I don't want to be 
condescending in that, but sometimes we forget how viable it 
is. It's easy to forget how completely we depend upon it. Human 
survival is dependent on water, and water's been ranked by 
experts as only second to oxygen as essential for life. And 
it's not only essential for drinking, but it's critical to our 
economy, including our number-one industry in Georgia, and that 
is agriculture.
    We've worked hard in Georgia to ensure that our uses of 
this precious resource are reasonable, that we are currently in 
the process of adopting a statewide water plan just here in 
this region. We've opened the Environmental Protection Division 
office in Tifton to improve local and state coordination on 
water use.
    EPD has just implemented the use of our new geographic 
information system technology into its process for evaluating 
applications for agricultural irrigation permits. The Soil & 
Water Conservation Authority is helping to put a water meter on 
every pump in the Flint River basin so that we can have the 
best quality data on agricultural water use for managing our 
water supply.
    We want to be good stewards because it's that important. We 
believe that Georgia's doing its part in--to responsibly 
utilize and manage our precious water resources that we share 
with our two sister states. So you can understand our 
exasperation when the United States Corps of Engineers fails to 
do its part to properly manage this critical resource in the 
ACT and in the ACF River basins.
    Waters arising and flowing in Georgia are waters of the 
State of Georgia. And the federal reservoirs constructed on 
them should be operated by the Corps to meet the vital needs of 
Georgia citizens, including water supply, waste assimilation, 
recreation and navigation, and to support, yes, the biological 
needs of a wide variety of species throughout the river basin.
    In March of this year, the Corps announced a new reservoir 
management plan for the ACF basin reservoirs called the Interim 
Operations Plan. Now, it wouldn't be appropriate if we didn't 
use an acronym for that, but IOP was intended to support the 
needs of the endangered Gulf sturgeon during its spring spawn 
and the needs of two species of protected mussels in the 
summer.
    While the intention of the IOP may be good, the State of 
Georgia is concerned that it mandates the release of far more 
water than is necessary for the protection of these species and 
depletes the water storage upon which people and wildlife, 
including those protected species at issue, depend. 
Unfortunately, under former leadership, the Corps had largely 
dismissed Georgia's concerns in those areas.
    On May 5th, 2006, Dr. Carol Couch, our director of 
Georgia's Environmental Protection Division, wrote a letter to 
the Corps including hydrologic data showing that the Corps' 
continued operations to draw down the federal reservoirs in the 
ACF basin to their lowest level in 50 years and could 
effectively empty them if continued. On June the 1st, 2006, Dr. 
Couch sent a letter to the Corps and the U.S. Fish & Wildlife 
Service requesting specific changes to the IOP.
    On June the 2nd, 2006, I wrote the Secretary of the Army, 
Frances Harvey, sharing Georgia's concern that, quote, Unless 
the Corps changes its operating protocols, the reservoirs and 
lakes in the system will be drawn down to their lowest level in 
recorded history. Also, on June the 2nd, 2006, Dr. Couch sent a 
letter to Colonel Peter Taylor and the Fish & Wildlife Service 
with an attached memorandum providing additional results of the 
simulation of the IOP using data and information received from 
the Corps.
    On June the 6th, 2006, I personally met with former 
Commander Michael Walsh and Colonel Taylor again expressing in 
person those concerns. By June 9th, 2006, the state received no 
material responses from the Corps in response to our letters of 
concern.
    Thus, on June the 9th, 2006, Dr. Couch wrote the Corps 
another letter demanding specific revisions for the IOP. On 
June the 12th, 2006, the Corps responded by letter to Dr. 
Couch's June 1st and June 2nd letters. The Corps challenged 
what it believed to be certain assumptions underlying Georgia's 
simulations of the IOP but did not provide data to allow 
Georgia to assess the validity of the Corps' assertions or to 
fully evaluate the discrepancy between the Corps' and Georgia's 
models.
    The Corps repeatedly put off responding to our June 9th 
letter that demanded changes to the IOP. After several requests 
for more time, the Corps finally stated that it would not 
respond to the June 9th letter because of unidentified, quote, 
Concerns raised by other parties to the litigation. In fact, 
the Corps did not respond to Dr. Couch's June 9th letter until 
June 21, 2006.
    In the midst of all this, the Corps has admitted to 
releasing more than 22 billion gallons of water from Lake 
Lanier by mistake; at a time when the region was approaching 
what is traditionally the dryest time of the year. By this 
mistake, they essentially created a man-made drought on top of 
a natural drought. The 22 and a half billion gallons of water 
the Corps mistakenly released corresponds to 6.3 percent of 
Lake Lanier's conservation storage capacity or 22 and a half of 
West Point's capacity or 28.2 of Walter F. George's storage 
conservation pool.
    The unfortunate actions by the Corps and the repeated lack 
of response to our concerns left Georgia with no alternative 
but to take legal action to protect our water resources. As 
you're aware, the State of Georgia filed a complaint in the 
Northern District of Georgia to stop the Corps' continued 
operation according to the Interim Operations Plan. This case 
is still pending.
    Litigation is never how I choose to deal with issues, as 
Congressman Westmoreland stated. And as I explained earlier, we 
tried to impress our concerns upon the Corps; however, the 
Corps' leadership was largely non-responsive. The threat to the 
State of Georgia months later was not subsided.
    The IOP that the Corps continues to operate under does not 
allow our reservoirs to refill and recover the lost stored 
water. Common sense tells you you cannot manage a system of 
reservoirs if you never store your water.
    The Corps' Interim Operations Plan was adopted without any 
prior notice, without any public participation, without 
analysis of its impact on authorized purposes for which the 
federal reservoirs were constructed, without consideration of 
its impact on the water supply security for the millions of 
people who rely on the Chattahoochee reservoir system for water 
supply, without consider of its long-term sustainability or its 
long-term impact on federally protected species, and without 
consideration of alternatives. The result is an unbalanced plan 
that poses a severe risk of substantial harm to the State of 
Georgia.
    In fact, the Interim Operations Plan is essentially a 
water-control plan; a water-control plan that was adopted 
without any public comment or notice and taking only one factor 
into consideration; that is, endangered species.
    Now, Georgia has long advocated that the Corps should 
update its master control plan for both the ACF and the ACT 
basins, which has not been done in over 50 years. As a result, 
the Corps is operating these complex systems without reliable 
and predictable operating rules tailored to current demands and 
conditions within the basin. Indeed, the Corps' own regulations 
provide that water control plans should be updated periodically 
in light of changing demands and other conditions. And I don't 
think there's any question that in the last 50 years the ACF 
and ACT basins in our region of all three states have changed 
dramatically.
    The Federal Government itself has recognized the need for 
current plans. The Federal Emergency Management Agency is 
investing millions of dollars in updating floodplain maps. This 
is in response to growth in Georgia and Alabama that has 
altered the flood characteristics of watersheds. The Corps 
needs to incorporate these altered flood characteristics into 
updated operation manuals to ensure the protection of life and 
property in both states.
    Further, inefficient, inaccurate, or unpredictable 
operation of the ACF and ACT systems results in growing 
uncertainty about the supply of water for more than half the 
Georgia citizens and facilities such as the Farley nuclear 
plant in Alabama and other power plants and industries. The 
water control plans should also be updated as part of 
implementing the 2003 settlement reached by the Corps, the 
State of Georgia, and other parties that would help ensure a 
constant water supply over the next decade.
    The failure of the Corps to update the water control plan 
is also affecting a stated purpose of lakes in the basin, and 
that is recreation. West Point officials have repeatedly asked 
the Corps to raise the level of the lake by two feet in the 
winter when the water is plentiful to accommodate recreational 
and fishing needs that have a significant impact on the 
region's economy. The Corps officials have said that they have 
to adhere to the elevation levels of the IOP. So it seems that 
the Corps only has the authority to change the--its operation 
when it wants to do so.
    So what does all this mean? The Corps is providing flows 
for the endangered sturgeon and mussels under an IOP. It was 
developed without studying its full effects and without 
properly updating the Corps' grossly outdated water control 
plan. The Corps' performance under the IOP this year 
demonstrates that it is not a sustainable plan.
    The ACF system lost more than 381,338 acre feet of storage 
during the period from March 1 to October 20, 2006, when the 
IOP has been implemented. This corresponds to 23 percent of the 
entire system storage at summer pool levels. The loss of system 
storage is the largest among historical drought years of 1986, 
1988, 1999, 2000, 2001, and 2006.
    The system now just has 63 percent of conservation storage 
left, which is worse than at the same time in 1999. That means 
if the current drought continues and turns out to be as severe 
and prolonged as the previous one or even worse, and if the 
Corps does not take measures to actively conserve water in the 
reservoirs, system storage will be depleted to levels never 
seen before.
    Earlier this year, the Corps submitted the IOP to the U.S. 
Fish & Wildlife Service for consultation pursuant to the 
Endangered Species Act. On September 5, 2006, the Fish & 
Wildlife Service issued its Biological Opinion regarding the 
Corps' operation and its effect on threatened species in the 
Apalachicola River.
    In the Biological Opinion, the Fish & Wildlife Service 
found the flows provided under the IOP would be sufficient to 
allow the threatened and endangered species to survive, but the 
Biological Opinion failed to recognize that the IOP does not 
allow the federal reservoirs to refill as they should, and 
thus, in a multi-year drought, those reservoirs could be 
drained completely with potentially devastating results and 
effect to human needs and the needs of a very same species that 
the IOP is designed to protect. The Biological Opinion, 
therefore, is seriously flawed, shortsighted, and 
unfortunately, it looks like you must have to go back to the 
Corps to challenge it.
    At the same time, Governor Riley and I are doing our best 
to put aside any disagreement between our states and reach an 
agreement on the management and operations of the ACT water 
basin. If we find common ground there, it is my hope that we 
would also reach consensus on the management of the ACT basin. 
Of course, in the end, the only way any agreement would be 
successful is if the Corps will manage the basin accordingly.
    I met with Governor Riley twice regarding the ACT River 
basin, and we're committed to a resolution. We may need to ask 
for your help, Congress, in securing the Corps' consent when 
the time comes.
    I hope there's an opportunity for the Corps to direct this 
course under Brigadier General Joseph Schroedel. Now, in order 
to get the Corps' operations back on track, I believe it's 
going to take real leadership on his part. And I look forward 
to personally sitting down with General Schroedel in the near 
future to discuss these important matters.
    In closing, I would like to say that I cannot believe 
Congress passed an Endangered Species Act with the intention of 
providing substantially more protection for the species than 
for human beings. The Corps can provide for both the needs of 
these endangered species and the needs of humans upstream if it 
operates wisely and is guided by sound science and good 
planning.
    For example, I do not believe Congress intended that the 
Corps provide those species with more water than they would 
have received even that the natural environment would provide; 
particularly when it comes at great costs upstream.
    It is time, as Congressman Westmoreland said, for common 
sense to prevail on this issue. That is what we want from the 
Corps when asking that they update the 50-year-old water 
control plan. That is what we seek through our request to stop 
the release of water greater than nature would provide.
    Thank you, once again, for this opportunity to voice 
Georgia's concern. Thank you.
    [The prepared statement of Governor Perdue can be found on 
page 50 in the appendix.]]
    The Chairman. Governor, thank you very much for those very 
informative, very straightforward comments relative to numerous 
issues we have in consideration relative to our tristate water 
issues here in Georgia. And thanks again for your leadership.
    And let me just say; I think everybody on this panel would 
agree that we've been trying to make changes in the Endangered 
Species Act for some time now. We can put some common-sense 
provisions in place, and unfortunately, when we try to take 
common sense to Washington, we find a road block at the city 
limits. And we're going to continue that fight trying to make 
sure that we make some provisions in the ESA to hopefully take 
care of situations like this, which is very directly.
    I want to point out; simply need to be put in place, and 
there needs to be more common sense. And thinking about the way 
we're protecting the environment and now the needs of the 
individuals throughout the country with that species which we 
all treasure so much.
    Thank you very much for being here. Thank you for your 
continued leadership.
    Governor Perdue. Thank you.
    The Chairman. Now, I would like to ask Brigadier General 
Joseph Schroedel, South Atlantic Division Commander, United 
States Army, Corps of Engineers, I'd like for you to come 
forward.
    General Schroedel, we know that you have only been on the 
job for a couple months now. And as Senator Isakson and I were 
discussing this with you, the fact that you are new, gives you 
a very unique perspective on the issues that we have as well as 
the ability to hopefully lead us down the road trying to solve 
some of these issues.
    I can't help but comment that when we had our meeting in 
Gainesville, General Walsh was still occupying your position as 
the South Atlantic Division Commander. Today, he is serving our 
country in Iraq. We wished him well back then. We obviously 
still hope he and all of his comrades who are in Iraq the very 
best, and they're in our prayers every day.
    We thank you for your great service to the United States of 
America. Because you wear the uniform, you're a hero of ours. 
And I don't have to tell you that it goes without saying and 
without knowing who all's in the audience that because of the 
location of Fort Benning here, there is a tremendous 
appreciation to the United States Army in this part of our 
state.
    So we thank you for being here, and we look forward to your 
comments.

   STATEMENT OF BRIGADIER GENERAL JOSEPH SCHROEDEL, DIVISION 
    COMMANDER, SOUTH ATLANTIC DIVISION, U.S. ARMY CORPS OF 
                           ENGINEERS

    General Schroedel. Great. Thank you, Mr. Chairman.
    Distinguished members of the Congress, great citizens of 
this local community in the State of Georgia, and the great 
South, having just gotten here, as the Chairman said, about two 
months ago, I'll tell you, my wife and I are ecstatic to be a 
part of the South; friendly people who we call true Americans.
    And it's just great to be here. And I also appreciate the 
expectations I think that you've already raised with folks from 
our initial meeting. I'll do everything I can to live up to 
that and more.
    I'd like to make some opening comments, and what I'll do, 
if I can, is I'd like to read a few of the--part of the opening 
statement. I want to save as much time as I can for discussion. 
The first thing I'd say is I'm here to listen. We are all in 
this together. This is a very complex problem. And the first 
question that I ask anybody is: What are your priorities and 
what are your objectives? And then our obligation is to figure 
out a way within our authorities and our capabilities to meet 
all of those demands.
    I'd also like to thank, if I can, everyone in this audience 
for your support to the United States Army and for all the men 
and women in uniform and civilians. I'll tell you; out of my 
4,000 employees in the division, about 80 right now are 
civilians, volunteers who are serving in harm's way in combat, 
serving the needs of our nation. And I'd like to thank all of 
you for your support. That's important.
    And for me personally, my son is deploying to Afghanistan 
today, so my personal commitment to you is I am here and not 
seeing him off. And I think it's an important statement to you 
that this is important to me, and I'm here to listen to what 
has to be said so I can execute my duties to the fullest extent 
that I can.
    And I'd also like to publicly respond, if I can, to one 
comment the Governor made. And if, in fact, our organization 
has not been responsive, I will publicly apologize for that. 
That will not be tolerated under my command. If someone asks a 
question, you're going to get an answer, and it better be 
quick.
    I'd also like to say that the Corps does commit to a policy 
of openness. Nothing that we do is secret, and everything that 
we do should be a matter of public record. We have websites. 
And it's a matter of education; make sure people know where to 
get the information. I will enforce and reinforce that. And, in 
fact, we let people know how to participate and help us serve 
you.
    Again, I ask that my full statement be submitted to the 
record. And let me go on with my opening statement so I could 
save some time for discussion and listening and see what we can 
do to help solve this problem.
    I'd like to also maybe start by responding to Congressman 
Westmoreland's question; sort of respond to your question of 
how can you help untie our hands. I think one of the bottom 
lines for us is that we've got to get past the feud between the 
three states. We have to have political peace behind us, and 
let us get on--as we committed the 2nd of January, let's get on 
with getting those manuals done so we can have a collaborative 
process that gets everybody involved in figuring out the right 
way to manage the system. I think we'll find many of the 
components of how we're managing it today will probably remain 
in place. But, nonetheless, 50 years is way too long, and we 
just need the political process to get past so we can get on 
with the work, and we're ready to go.
    So let me go on with a little bit of my statement, if I 
can. The ACT River system of projects--and by the way, let me 
back up for a second. I've only been here a couple of months, 
and I've been working hard to learn everything I can about this 
system. My boss has said this is my priority for the region. I 
still have a lot to learn. I've got some of my experts in the 
audience with me. I am not going to pretend to be the expert 
today. I can tell you I've asked a lot of tough questions, so I 
know a little bit, and I'll share as much as I can here today.
    The ACT River system projects consist of multi-purpose 
projects providing for flood control, hydropower, navigation, 
water supply, water quality, recreation, and fish and wildlife 
conservation; all the above. The system has five Corps projects 
and 10 Alabama Power Company dams, and the Corps projects 
consist of two major storage projects, Allatoona and Carters, 
here in the State of Georgia at the upper end of the basin.
    The basin, as everyone knows, is experiencing some dry 
conditions as are other basins within the southeast. I will 
tell you I was shocked to come here from the southwest where I 
commanded a division for three and a half years, and shocked to 
find that there were no natural reservoirs here. That was a 
shock to me. I'll just pass that on to you.
    The two uppermost projects, Allatoona and Carters, are 
experiencing inflows that average 10 to 50 percent less than 
normal. But only minimum flows are currently being released 
from Carters, and Allatoona is only generating power two hours 
a day. I'll also add that we have allocated no water in 
navigation since about the year 2000.
    The ACF River system of projects also consists of multi-
purpose projects, all for the same purposes that I just 
mentioned. The Federal projects in the system begin, as I think 
most people know, with Lake Sidney Lanier at the headwaters, 
West Point Lake here, Lake Walter F. George, George W. Andrews, 
and Lake Seminole at the lower end of the basin. And there are 
also several other lakes and hydropower facilities operated by 
private and public utilities along the system.
    Now, under normal circumstances--and this is one point that 
I'd like to make sure you all understand. Under normal 
circumstances, we operate the reservoirs to meet the purposes 
in accordance with not the IOP but draft water management 
plans. Our most recent attempt to revise all the manuals that 
were developed in the 1980s; the IOP is a specific manual which 
addresses only the endangered species south of Woodruff. It 
does not--does not apply to the entire system.
    What we did in the 1980s is establish certain zones of 
water levels, which trigger actions within those zones as 
different levels are reached. Now, this management has proven 
to be successful in the past under varying water conditions, 
drought or no drought. And what these zones do, basically, is 
that it allows us to balance the competing demands at each 
reservoir, and at the same time, synchronize what we're doing 
with the water all along the system between the reservoirs.
    So if we're at Level 2 or between Level 2, let's say at 
Lanier, we want to be at that level at all of the systems. That 
doesn't mean a certain level; it means be within the band for 
that particular reservoir that would meet all of the needs to 
the best extent that we can accomplish that at that site.
    Obviously during a drought, that causes special problems, 
so we've modeled the reservoir levels for this year using the 
assumptions of the 2000 drought as a basis. Now, based on that 
assumption, we expected West Point Lake to reach its lowest 
point at the mid winter. I think, as most people know, we have 
all the lakes down in the winter to provide for flood 
protection and then bring them back up in the spring. We expect 
that by January, at most, a decline of perhaps another two 
feet; maybe a little bit more, but right now, as a matter of 
fact, the lake went up today.
    I will tell you also we have to look at what the weather 
experts say. They're predicting a small El Nino, which 
typically brings higher than normal rains in the southeast. So 
we had to take that into account from our calculation of risks. 
Regardless, the Corps will continue to operate with the current 
management plan. We'll do our best to meet the needs.
    Let me address the winter pool level, if I can, for a 
second. West Point Lake was authorized with five purposes; 
recreation, hydropower, flood control, navigation, fish and 
wildlife conservation. And we make every effort to meet all of 
these needs and authorize purposes to the fullest extent 
possible with the available water. A request to raise the 
winter pool level from the current conservation level of 628 to 
630 was disapproved after an extensive evaluation of risks. And 
in this case, we had to balance flood risks against recreation.
    Let me explain how operational decisions are influenced by 
a variety of factors. Operation of Corps reservoirs take into 
account current and predicted future conditions, as I said. For 
instance, in a drought, conserving water for human and 
industrial consumption becomes a higher priority, and I think 
we'd all agree with that. I'm sure some folks in this area 
remember well the flood of 2003 when the rain fell pretty 
heavily between here and Lanier, and it caused quite a stir, as 
I am told.
    Some other uses, such as recreation and hydropower, may 
temporarily become a lower priority. Likewise, in times when 
the risk of flooding becomes greater, flood control operations 
rise in priority. So these dams that we've established within 
our current manuals help us balance those needs and judge 
risks. The winter pool level at West Point was originally 
authorized at 625, and then we raised it to 628 in the 1980s 
with these draft manuals.
    To make an informed decision--and this is a point I'd like 
to make. To make an informed decision on increasing the winter 
pool level, a study must be done--and by the way, I'm not a fan 
of long drawn-out studies. I like to get her done. But I'd like 
to see us do a study quickly to quantify--which hasn't been 
done at this point; quantify the increased risk to downstream 
citizens, flood risk.
    At the same time, you know, let's quantify what the trade-
offs are with respect to costs to mitigate the risks, the 
social benefits, socioeconomic benefits, of recreation. I don't 
know. Perhaps there aren't as many people living south of the 
lake as used to be. There are a lot of factors we should take 
into account.
    But I personally am in favor of a study quickly. Let's get 
to the answer, and let's make a decision. It's within our 
authority to raise the level, but let's do what we need to do 
to be as certain as we can about what risks we're taking. So I 
just want to make sure that I make that point to everybody in 
this local community, though I would like to do that as quickly 
as we can.
    On the Endangered Species Act, just a couple of quick 
comments. Again, the Interim Operating Plan is focused strictly 
on the endangered species list. That's the mussels that you've 
heard about and the Gulf sturgeon.
    We've been in consultation with the Fish & Wildlife Service 
since the year 2000, so about six years. It was only this 
year--about the time I got here--or actually, before I got 
here--that we entered into a formal consultation with the Fish 
& Wildlife Service. They've now issued their Biological 
Opinion.
    And the key piece for me--this is one of the questions I 
asked. One of the questions I asked was: How much were we 
releasing prior to this IOP? And it amounts to about 5,000 
cubic feet per second. So the IOP basically embraced what we 
were already releasing as a normal flow--outflow, not just for 
endangered species. So the overall impact on lake-level 
reservoirs is really minimal, from what I can tell so far, with 
respect to this IOP.
    The BIOP basically sets parameters for the flow. I won't 
get into the details. Naturally, they might before I get into 
any of it, but I can tell you that it's a very complicated set 
of adjustments that are made that may require some of the 
release of storage; again, depending on how low the flows go. 
And, again, I don't want to cover those details right here.
    During drought conditions--and I guess the bottom line is: 
During drought conditions, not all project purposes can be met. 
I think we all understand that. You have competing demands; 
you've got to set priorities somewhere. And only minimum basin 
inflows would be released in support of endangered species. So 
I think we've got a balance there.
    We've also simulated West Point Lake and Walter F. George 
Lake levels for both with and without the IOP. Now, this is an 
important point for me. The modeling shows that as of 1 
October, the current lake levels would be approximately one 
foot higher without the implementation of the IOP for this 
Biological Opinion. It should also be noted that during less 
extreme conditions, the impacts of the IOP BIOP would be 
negligible on lake levels at West Point.
    Let me conclude by saying that the ACF River system 
currently exists in a couple of environments that make all 
decisions a challenge. And I will tell you I don't mind hard 
decisions. I don't mind being in a rock and a hard place.
    The first clearly is the drought, and it looks like it's 
moderating a little bit. Matter of fact, we just raised--we 
picked up six inches this past weekend with the rain we had. 
But the second one, which I would ask for help from--the 
Congress' help from, or the Governor, you know, is the 
disagreement that currently exists between the states over 
water allocation and the best management of the system.
    Now, I will tell you; I think everybody wants to see that, 
and I frankly think that's going to happen. And we're in a dry 
run, as I said earlier, and trying to get our manuals going so 
we can get everybody working together and solve this issue as 
quickly as we can.
    I don't have all the answers, but the Corps remains ready 
to support, ready to serve you, ready to serve your needs, 
ready to provide the technical expertise, which I've already 
spent a lot of time with our folks, and I'm very comfortable in 
their abilities, and we're here to provide all the assistance 
we can to make the right things happen.
    So, again, the commitment that I'll make is I'm honored to 
be here. Great to be a part of the South. We'll remain 
responsive. I want to listen. I want to hear what your concerns 
are. I want to know what your objectives are. I want to make 
sure that we're communicating with you so you know what we're 
thinking and how we're trying to balance the competing needs.
    I frankly think the Corps is in a great position as an 
independent entity to oversee a system, which is essentially an 
interstate system, and help make sure that all of those needs 
are met to the best of our ability to serve the needs of the 
American people who are served by that system or both the 
systems.
    Sir, thank you very much.
    [The prepared statement of General Schroedel can be found 
on page 61 in the appendix.]]
    The Chairman. General, thank you very much for your 
comments. And let me say, that with your son deploying to 
Afghanistan today, just know that you and your family are in 
our prayers, and we hope that you'll give your son an extra hug 
around the neck from all of us the next time you do see him and 
tell him how much we appreciate his dedication to protecting 
all Americans and making sure that freedom and security are 
maintained in this country.
    We've been joined by Congressman Phil Gingrey. So I want to 
make sure he has the opportunity to not only ask questions but 
make an opening statement.
    And, Congressman Gingrey, just so you'll know, what we're 
going to do is to go down the line, and we're going to let 
everybody ask questions. When it comes your turn, you'll have 
all the time you want to make any sort of statement plus ask 
your questions. So we'll keep you in the mix there.
    General, it was my understanding that there has not been a 
new water control plan for the ACF system for really all of the 
50 years that it's been in existence. However, in your 
statement, you referenced the draft water management plans 
developed in the late 1980s.
    Do you operate the system pursuant to these draft 
management plans, and do they therefore have the force and 
effect of a management plan, or do you operate the system based 
on the Interim Operations Plan, which was created after the 
State of Florida filed their Endangered Species Act claims 
earlier this year?
    General Schroedel. Sir, we operate the entire system on the 
basis of those draft 1980 manuals, which decline to depict 
their level of the bands that I talked about into zones, which 
were created in conjunction with state folks to help determine 
between the signs and the calculation. How do we balance all of 
those needs at varying levels at each of our reservoirs?
    So the short answer is: We use those manuals. And the IOP 
is augment to that only for that portion south of Woodruff to 
address the water being released from there or beyond that 
point for the endangered species for the mussels.
    But, again, 5,000 CFS flow, which is in that Biological 
Opinion, is historically about what we saw into flow in there.
    The Chairman. Now, it's my understanding that the IOP dealt 
in part with trying to protect the mussels and sturgeons during 
their spawning season. Is that going to be a continual IOP, or 
is that then modified depending on the season for spawning?
    General Schroedel. Sir, to be honest with you, I'm not 
really sure. But what I would expect to happen is if we can 
move on with the master manual--with revising the manuals, that 
we should incorporate into those manuals the appropriate steps 
to address the endangered species and not have a myriad of 
different manuals that perhaps conflict or cause confusion 
regarding what's the management plan. I think we need one 
management plan.
    The Chairman. Well, let's talk about the updating of those 
manuals.
    What the entire Delegation here wants to see is the 
updating of those manuals because these lakes were built in the 
1950's, and basically, they're operating under the same water 
plans pursuant to the water manuals that were in place when 
these lakes were constructed.
    We have been assured by the Secretary of the Army in a 
meeting face-to-face with Senator Isakson and I had that the 
manuals would begin being updated on January 2nd, 2007. Leading 
up to that, there would be some preliminary work being done, 
which is, I understand, in place now, in preparation for the 
updating of those manuals.
    Can you tell us whether or not that schedule of beginning 
the updating process is going to take place on January 2nd?
    General Schroedel. Sir, I've reviewed the testimony and the 
bidding, and my understanding is that we have committed, and I 
will reaffirm the commitment to begin that work. I will also 
note--like to point out that I'm being told at the same time 
that funding to carry that effort out as quickly as we need to 
is not adequate.
    The Chairman. Now is the time for us to address that issue. 
I assure you it's being addressed at our level.
    General Schroedel. Thank you, sir.
    The Chairman. And we're not going to let it be held up for 
that reason.
    There are various interests in our state which makes Georga 
a little bit unique and different from our two bordering states 
involved in this issue. We have issues in north Georgia, for 
example, with Lake Lanier being the water source for the city 
of Atlanta as well as of some other surrounding communities for 
it being a discharge area for some of the counties surrounding 
metropolitan Atlanta that are different than those you find as 
you move downstream.
    Downstream, not only do we have the same recreational water 
supply issues as north Georgia relative to the lakes in this 
part of the state, but there are important agricultural 
interests and interests in transporting goods in commerce down 
the rivers to the Gulf. Those issues are unique here versus the 
issues that are prevalent in the metro Atlanta area.
    So as you go through this process, I want to make sure that 
the Corps thoroughly understands that there are different and, 
in some instances, competing issues that need to be addressed 
and that we need to strike the right balance when it comes to 
making sure that Atlanta has the water supply it needs to 
operate its drinking water system.
    But at the same time, we've got to make sure that folks 
down on this end of the rivers and the reservoirs that they use 
here are provided with the necessary levels to allow them to 
continue the recreation, the drinking water that they need, and 
also provide the flow in the rivers to allow for the commercial 
operation of our ports here.
    I was curious when you said that previous actions on the 
levels at the lakes have been successful. We're going to hear 
from some property owners a little bit later, and I'll be 
interested to hear what they have to say about how successful 
they think the operation from a level standpoint is.
    And I'll note with interest that Dick Timmerberg is going 
to point this out to us a little bit later on with some 
photographs. These photographs show docks that are obviously 
docks that have been out of water not for a few days, a few 
weeks, but months, maybe even years. There's good-standing 
trash going under and upward to these docks.
    So the assertion that our levels have been successful over 
the years is going to be an issue, which I'm sure will be 
addressed a little later. And when you say you're going to 
listen--and I appreciate that--I hope you'll listen very 
closely to what our witnesses have to say about those levels.
    Various stakeholders in the ACF system have very specific 
requests of the Corps in terms of their management of the 
systems. For instance, the West Point Lake Coalition would like 
to raise the winter pool of West Point Lake. Why can't you 
simply just raise that level? Give us an explanation so that 
these folks can understand why the Corps can't just arbitrarily 
go out and raise the level of West Point Lake.
    General Schroedel. Sir, without the word ``arbitrarily,'' 
I'd say that it is within our authority to make the decision to 
raise the level. And as I indicated earlier, we did raise the 
level once in conjunction with the 1980s revision from 625, 
which was the level that was determined to be appropriate for 
providing the proper flood capacity. So we've already raised it 
three feet.
    And we can; however, at this point, we're not willing to do 
so because we believe the risk of flood damage downstream is 
higher this year, given what we know about predicted rainfalls, 
given what we know about the hydrology, given what we know 
about the system, we're not willing to make that decision to 
accept that risk. We think it's too high.
    However, what we need to take a look at, as I mentioned, 
are two things. One, we need to take a look at what's 
downstream these days and what risk mitigation measures are 
there. One suggestion that's come out of the community is: You 
know, if we have enough advanced notice, we can pre-evacuate.
    I'm personally not a fan of pre-evacuation. I think Katrina 
taught us that the infrastructure of this country is built for 
the economy; not for evacuation. You can't evacuate people fast 
enough. However, if there are local plans that say, ``Wait a 
minute. We're only talking about 300 people, and given two-
hours notice, we feel comfortable we can get them out of 
there,'' those are plans and dialogues that we haven't been 
able to have.
    We also have not quantified--and there was another study 
done that I'm aware of that took a look at this issue, but that 
study did not quantify the flood risks, nor did it quantify 
what the real trade-offs were in terms of real recreation 
benefits.
    I took a look--again, I'm gathering information trying to 
learn as fast as I can, and I took a look at the visitation of 
West Point Lake just yesterday when I visited, and I can tell 
you, of the 3.2 million visitors per year, looking at the last 
three years, I looked at the visitation between November, 
December, January, and February, those four months account for 
17 percent of visitation on an annual basis.
    So the vast majority of visitation occurs in the summer 
months when the flood--when the pools are up. Don't have to 
worry about flood mitigation and--but, again, this is just--
this is a superficial piece of information that I noted. But 
from my initial look at, you know, where are we, and what are 
we basing the risk on? I think we need more information, and 
that's why I would endorse a quick study.
    I'm going to meet with some local folks later on today. I 
want to talk to them about some other authorities. You know, 
there are two or three agreements, and there are other means by 
which using perhaps some local resources and our resources, we 
can put together a quick study and try and determine the 
answers to these questions about flood risk and trade-offs on 
the recreation piece.
    So, sir, we can. I would like to move out--I have a history 
from my last command of authorizing a deviations in the west 
where we track down rivers and the disappearance of rivers over 
seasons. And we were raising Prado Dam as an example. We did a 
study; raised it about four feet. And not for recreation; 
there's no recreation out on Prado Dam above Gainesville. 
Instead, what is at risk is the water supply. You know, water 
is gold out west.
    So I personally am inclined in that direction from my 
history and what I've done in command in other areas, but I 
want to make sure we've got the right collaborative study done 
quickly that would--it would make sure we're doing this in a--
with a good understanding of the risks.
    The Chairman. Well, I'll leave it to others to delve into 
that a little more, but I think it's safe to say that from an 
upstream standpoint over the last couple of years, 
particularly, there hadn't been any need to worry about 
flooding downstream.
    General Schroedel. Sir, I'd like to point that I also find 
very interesting about this system; Lake Lanier holds--and I 
find this very fascinating. Lake Lanier holds 60 percent of the 
storage on the system, but it is served by only 5 percent of 
the watershed. West Point Lake provides 20 percent--make sure I 
got my numbers right here. I thought this was very fascinating. 
West Point holds 20 percent of the storage, but yet is served 
by 14 percent of the watershed.
    And that was why we had the situation we did in 2003 when 
we have a rain south of Lanier; you've got a bigger watershed, 
bigger area that's feeding the lake, and you can--you can 
impound the water much more quickly than you can ever, ever 
impound the water at Lanier.
    So I guess a little dynamics along the system like that 
could feed into our risk situations, and we need to think about 
that.
    The Chairman. There is one last area I want to cover with 
you. In June of this year, we learned that due to a calibration 
error, the Corps of Engineers incorrectly released an extra 22 
billion gallons of water from Lake Lanier. In our hearing in 
Gainesville, General Walsh told us in order to prevent such a 
calibration error in the future, a redundant system was put in 
place on Lake Lanier.
    First of all, would you comment on that calibration error, 
and have similar redundant systems been put in place downstream 
at West Point Lake, Walter F. George, and Seminole Lake?
    General Schroedel. Sir, absolutely. I can tell you; if 
anything about the Corps, we are a learning organization, and 
when we make a mistake, we learn and we respond quickly. And I 
can tell you; yesterday, I personally saw three different 
redundant systems that are measured every day and tracked to 
make sure that all three are in sync and that we know exactly 
what the level of that lake is; to the hundredth of a foot, I 
might add.
    But yes, sir, that's in place. And I put my hands on them, 
so I know what they look like and if they work.
    The Chairman. Okay.
    General Schroedel. And I've done the same on all of the 
other systems.
    The Chairman. Are they working?
    General Schroedel. Yes, sir.
    The Chairman. Okay. Senator Isakson.
    Senator Isakson. Thank you, Senator Chambliss.
    You told us before the hearing and then into your 
testimony, you said your first order of business when you get a 
new command is to ask the stakeholders what are their 
priorities.
    General Schroedel. Yes, sir.
    Senator Isakson. Just so the record reflects it--and you've 
already addressed it--our number-one priority is implementing 
the water control plans on January 2nd of next year. And to 
that end, you made a reference, which was well-noted by all of 
us up here, that there may be some shortage of funding to be 
able to do it as rapidly as you would like to do it. That falls 
under our responsibility.
    Do you happen to know how much money you need for '07 and 
'08 to do the water control plan?
    General Schroedel. Sir, I honestly don't know. But I can 
get you that answer quickly.
    Senator Isakson. Well, I would appreciate it, and I know 
all of the other members here would appreciate your writing us 
and giving us the information on what it would take to complete 
that plan within the time frame that it's completable, which I 
understand is somewhere less than 24 months, but more than 12. 
That way, we can go to bat for that funding in Washington D.C. 
And I know Saxby--and I agreed with what Saxby said; we'll get 
that done, but we need to know----
    General Schroedel. Yes, sir.
    Senator Isakson.----how much as quickly as possible.
    General Schroedel. Yes, sir. Thank you.
    Senator Isakson. On that vain, secondly, with regard to the 
winter pool in West Point, in your testimony, you said: To make 
an informed decision on increasing the winter pool level, a 
study must be done which quantifies the risk--increased rate of 
downstream--risks to downstream citizens, the annual cost of 
increased flooding, the cost to mitigate the flood risk, 
socioeconomic benefits of high winter pool for recreation and 
other purposes, and any impacts on benefits of fish and 
wildlife.
    Will you initiate such a study?
    General Schroedel. Yes, sir.
    Senator Isakson. And if you have considered that you--if 
you would, how much is that going to cost?
    General Schroedel. Well, sir, that's what I'm going to talk 
to the local folks today about. And if, in fact, there is a 
requirement for funding on our side, then we can let you know 
that. Again, I don't know the exact details of that till I meet 
with the local folks and our folks this afternoon to discuss 
that point.
    Senator Isakson. Well, I know you acknowledge in your 
testimony that you were aware that the local study was done and 
accepted the fact that it may very well be correct, but there 
were certain things within the priorities under law that you 
have to consider the warning risk in that.
    General Schroedel. Yes, sir.
    Senator Isakson. And I assume maybe you can take the best 
of information from that study and then add to it those other 
things like fish and wildlife.
    General Schroedel. Yes, sir. Absolutely. That's my intent.
    Senator Isakson. Is there any similarity between here and 
the South Pacific Division you commanded before coming here as 
far as water?
    General Schroedel. Yes, sir, there is. I guess my first 
impression was I was shocked to find out that there were water 
wars in the southeast. And I was further shocked to find out 
that there are no natural reservoirs in the southeast and--and, 
again, my initial impression here is that our problem is a 
simple--I'll say simple--is a complex matter but made simpler, 
I think, by two things; storage and management of that storage.
    And I'd be the first to stand up and say I think we need 
some sort of an interstate, if you will, system commission like 
the Delaware River system or something, in which the Federal 
Government and others play a role in, and here's why: To 
respond again to some comments that the Chairman made, we do--
we the Corps and all of us need to be very aware of not only 
the differences between needs up at the headwaters and needs at 
the tailwaters and differences of those balances, but I think 
not only do we need manuals here, I think we need a dynamic 
process and a dynamic system that, once we put manuals in 
place, we don't wait another 50 years--you know, I'd like our 
grandchildren and great-grandchildren--and we owe it to future 
Americans to have a process in place that will ensure that we 
don't have this happen again.
    We can't have 50 years go between change in how we do 
business. Developmental pressures. Mother Nature, by the way, 
has a role. She's changing things. I think in addition to the 
manuals right now, we need to come up with a dynamic process. 
Call it Interstate Commission; I don't care what it is. 
Something that will allow us to update this process 
continuously because it's dynamic, and it changes year-to-year; 
drought, no drought, developmental pressures, it doesn't 
matter.
    So I think in addition to the manuals, we need a process 
that will allow us to make this whole thing dynamic and not let 
this happen ever again.
    Senator Isakson. To that end, we are in a--this is the 16th 
year of the absence of tristate water contract, and for 15 and 
a half years of those 16 years, three states have been in 
court. And during all that period of time, the inability for us 
to finally get an interstate water contract agreement was, in 
large measure, because we didn't have a water control plan.
    So I just want----
    General Schroedel. Wow.
    Senator Isakson. I just--the point's been made to us that 
without the water control plan, we'll never really get a final 
tristate contract because only after you know how the watershed 
is going to be managed and the environmental factors it'll 
change, the states will have reached that agreement.
    So that's--when you hear us talk so often about when are 
you going to start and when are you going to finish and how 
much is it going to cost, all along 16 years--my 16 years, last 
16 years in the State Government and Federal Government, that 
has been the ultimate thing that allowed people the ability to 
agree to disagree because they didn't have that plan.
    So just for a matter of evidence--not a question, just an 
editorial comment--that's why the Corps' quick implementation 
of that plan is so essential to all of us.
    General Schroedel. Great, sir.
    Senator Isakson. Thank you----
    General Schroedel. That's good to know.
    Senator Isakson.----Mr. Chairman.
    The Chairman. Congressman Bishop.
    Mr. Bishop. Thank you very much.
    General, we appreciate your openness and your flexibility 
in trying to deal with some of these very challenging issues. 
You were talking about formulating some dynamic way of dealing 
with these challenges so that we don't have to wait so that you 
can get me that input that was--that's responsive to the 
current conditions.
    We had a very, very heated--and I've had several heated 
town hall meetings with representatives of the Corps down 
around the Lake Seminole area, and there's some concern around 
the Lake Walter F. George area about the implementation of the 
Corps, of directives, about the management, about the 
interpretation of the rules and regulations, some--many 
interpretations of which change depended upon who the 
character--the supervisor is in the area.
    Although, residents may have been living on Lake Seminole 
for 20, 25 years and had residences there. Now, all of a 
sudden, the new person comes in and says, well, you've got a 
one-foot overhang or your dock is one foot too large. And these 
conditions have been in existence for 20 years in many 
instances, and they're told that they now have to remove or 
have to alter their home.
    And there are all kinds of problems that have--that were 
expressed and has a great deal of tension, which I found myself 
as a referee between the 150, 200 residents at that angry 
meeting and your representatives. And I must commend Colonel 
Taylor and--for his leadership and Colonel Helgar from Mobile--
I mean, from Savannah, who were willing to sit in to have an 
attitude such as you've exhibited here today.
    But out of all of that, we were able to suggest, and 
Colonel Taylor was able to agree to implement and has, in fact, 
begun implementation of community councils so that residents of 
areas that have been impacted by the Corps policies can have 
regular meetings with the Corps so that the Corps can get 
feedback on how the regulations are being applied and 
implemented, how the interpretations are affecting the 
residents where there are concerns about maintenance.
    For example, the hydrilla problem is a real problem and has 
been a real problem in the Lake Seminole area, and to some 
extent now in the Lake Walter F. George area. All of these 
areas have a great deal of tension, and if you had regular 
community councils that met on a regular basis that dealt with 
these issues before they came to a crisis.
    And I have to commend Colonel Taylor who said with 
tremendous authority as the district commander to implement 
them and did it, and it has made my life a lot easier in 
responding to the kind of admissions of angry residents who 
want the Congressmen to do something about the Corps.
    So I was hoping that you could, all along the ACT and the 
ACF, if you could consider establishing some of these community 
councils where stakeholders get to interact on a regular basis 
with the Corps personnel so that some of the problems that 
we're talking about now don't come up as surprises when there's 
a crisis, and we can deal with them on a regular basis and 
keeping it from becoming a major issue.
    General Schroedel. Sir, that makes too much sense. I've 
considered it, it's done. As soon as I get back, that will be 
the standard for my entire division; not just the State of 
Georgia. That's a great idea. Thank you.
    I don't like to waste time thinking about things either.
    The Chairman. Senator Westmoreland.
    Mr. Bishop. Thank you, Mr. Chairman.
    General, I noticed that you've got--listed flood control, 
hydropower, navigation, water supply, water quality, 
recreation, fish and wildlife conservation, and I read where 
those change the articles.
    Just looking at the overall priority, where would you put 
the fish and wildlife?
    General Schroedel. Where will I personally put it?
    Mr. Bishop. Yeah. In what rank?
    General Schroedel. I would do everything I could to make 
sure I complied with the law first. As we all know, it is a 
law, and we have to comply with the law so we try to work very 
closely with the services.
    But I will tell you, I always ask the question: When are we 
going to put human beings on the endangered species list? So 
we've got to have a balance.
    Mr. Bishop. Okay.
    General Schroedel. Balance is appropriate.
    Mr. Bishop. Well, my point is: They seem to be driving the 
train right now.
    General Schroedel. Sir, at least from my initial look, I 
don't find that to be the case, honestly.
    Mr. Bishop. Okay. Good.
    General Schroedel. Given the flows, historical flows, as I 
mentioned earlier, and given the impacts with or without--and I 
will tell you; we did some very strong arm wrestling with the 
Service on that Biological Opinion, and we were fairly 
satisfied that we weren't going to do--having the train driven 
by endangered species.
    So I'm very comfortable personally with what I've learned 
about the collaboration, coordination, and, you know, making 
sure we didn't go too far one way. So at this point, my initial 
impression is that I think we're probably okay. But I'm not 
satisfied yet.
    Mr. Bishop. Okay. Now, you talked about down river results, 
as far as collecting all of those. Do you know when West Point 
was impounded? When the water was impounded?
    General Schroedel. Sir, I know the--I found this 
fascinating. I know the lake was dedicated the same month and 
year that I began my service with this nation as a commissioned 
officer; June of '75.
    Mr. Bishop. Okay.
    General Schroedel. So I'll never forget it.
    Mr. Bishop. And so there's been a lot of development in the 
last 30 years or so downstream?
    General Schroedel. Right.
    Mr. Bishop. And when that lake was impounded, we knew what 
it was impounded for, at least what the law said. And so 
anybody that has built downstream from there now that have put 
their self in danger of a flood is their problem and not the 
people's problem on West Point Lake, is it--would that be a 
true statement?
    General Schroedel. Sir, I mean, you can say that. I'm not 
sure I would. But I mean----
    Mr. Bishop. Well, somebody allowed----
    General Schroedel. I think----
    Mr. Bishop. Somebody allowed them to build in harm's way 
based on the facts that were there in 1975; is that not true?
    General Schroedel. Yes, sir. I mean, I can tell you from my 
previous experience, especially out west watching people in 
development pressures, forest people are then choosing on their 
own some buildable flood zones--despite flood insurance, 
despite FEMA warnings, despite all the other warnings. In the 
end, when the flood comes, there's still people, and they're 
still standing there looking for help, and we wind up helping 
them anyway. It's a very interesting challenge personally.
    Mr. Bishop. I don't disagree with you. I understand. But my 
point is that I don't think the people that are living around 
that lake should be responsible for bad behavior on somebody 
else's part.
    General Schroedel. I agree.
    Mr. Bishop. Let me ask you another question.
    Are you aware that people from LaGrange and Troup County 
and West Point Lake had a meeting with Mr. Woodly in 
Washington?
    General Schroedel. No, sir.
    Mr. Bishop. Myself and Congressman Gingrey and 
representatives from the Senator's office were in that meeting. 
Colonel Taylor was in the meeting also.
    And at that meeting, one of the things that we asked for is 
that before any decision was being made about the 630 level, 
that Troup, LaGrange's, West Point's engineers and--had 
prepared a study of great expense to them that the Corps 
study--people that did it and the people that did their study 
can sit down and compare notes, so to speak.
    We were told that meeting would occur. It never occurred. 
And the Corps came down with their decision not to raise the 
lake level. So we have not been given cooperation. And, like I 
said, Colonel Taylor was in the meeting, but Mr. Woodly, which 
I understand is the Secretary of Civil Works for the Army in 
Washington--so I don't know if we need to go any higher than 
that or not, but, General, we're going to count on you to check 
on that, if you would, and find out why that meeting didn't 
take place.
    General Schroedel. Sir, I will do that this afternoon 
because I'll be meeting with, I think, some of those same folks 
today, so I will pursue that today.
    Mr. Bishop. Okay. If we could.
    And, you know, I also notice that you had on here that--I 
guess, that these lake levels were based on predictions of 
weather--weather patterns, and that's good to base it on 
historical patterns and predictions. I think there was a 
prediction that this year there would be five major hurricanes 
hit the United States, and I don't think--I don't think we've 
had one yet. So sometimes predictions are wrong, but facts are 
facts.
    And I think it was either in '93 or '95, during the summer, 
full lake level at West Point, we had about 11 inches of rain. 
Now, I think the lake got at that time to 641. No flooding 
occurred. And that was at a full lake level. And that was at a 
time where there was no prediction of that type of rain, no 
historical basis, I don't guess, for that type of rain. But 
that rain happened. Like you said, Mother Nature is 
unpredictable. But even though that rain happened at a time 
that it had never been predicted, not usual, at a lake at full 
level, no flooding.
    So I wish you would consider some of those facts----
    General Schroedel. Sir, I will.
    Mr. Bishop.----when you look at that is that predictions 
are good, history is good, but sometimes facts tend to do 
better.
    I'm glad to see that you're going to meet with the people 
of West Point because, as Congressman Bishop said--I think his 
recommendation is a good one, and I was glad to see that you 
went along with it because people--because of bad predictions 
and bad decisions--have suffered great property loss, value, 
and just the rights that were given to have private property, 
the right to enjoy it.
    And then Senator Chambliss showed in those pictures, and I 
hope and I'm sure that you'll get a copy of the complete album.
    General Schroedel. Okay.
    Mr. Bishop. You'll see where that--where people's property 
are, as 628 left them. In the--and reality of it is, I think 
the 630 level would be great, but I think the 633 level would 
be even better. So don't just take the 630 and try to run with 
it. If we wind up getting it any higher than that, we would.
    And, General, I want to thank you, and I'm looking forward 
to working with you and getting some type of resolve to this 
problem because I think everybody in this panel, I know, wants 
some resolve to it.
    And we're looking for some leadership from the Corps. You 
know, the Corps just can't be the passive kind of, well, fish 
and wildlife saying this, the courts are saying this. You need 
to stand up and be the leader that you are, and I know you 
will.
    So thank you for coming into the battle zone here and 
taking the income, but I look forward to working with you in 
the future.
    General Schroedel. Sir, likewise. Thank you.
    Senator Isakson. Representative Gingrey.
    Mr. Gingrey. Mr. Chairman, thank you. First of all, let me 
apologize for being a little bit late and missing an 
opportunity to make an opening statement. I would like to ask 
Mr. Chairman unanimous consent to submit my written remark for 
the record.
    Senator Isakson. Without objection.
    Mr. Gingrey. Thank you, Mr. Chairman.
    I'm very appreciative of having the opportunity to be here 
as part of the panel in this agricultural position to sit in 
the Agricultural Committee Field Hearing in Columbus, Georgia, 
with my colleagues.
    And, General, what I want you to understand, I think 
probably everything has already been said, but all of us that 
have not had the opportunity to say it, so I'm not going to 
repeat what I can predict I think my colleagues--well, 
Congressmen Bishop and Westmoreland, in particular, the three 
of us, as you know, currently all represent this part of the 
state.
    But here on this--on this day, you've got a third, fully 
one-third, General, of the Congressional Delegation of the 
State of Georgia representing nine and a half million people. 
You've got both of our United States Senators and three of our 
Congressmen in a bipartisan fashion. And some of us had to get 
up real early in the morning to get here from Moultrie, 
Georgia, and Cobb County, and that just could kind of indicate 
to you how important these issues are.
    And I was really pleased when you, as a second panel, took 
your seat, and I saw you roll up those sleeves and kind of 
reminded me of General Schwartzkopf in Desert Storm, and you've 
got that take-charge look, and you told us that in a previous 
command you've not hesitated to deviate from the book when it 
seemed appropriate when common sense prevailed, and that's the 
kind of thinking that we like.
    And we are asking from you in regard to this particular 
issue--I realize with the next panel, you're going to hear from 
folks on this issue of this winter pool level at West Point 
Lake, and, of course, you're going to hear from our farm 
community, and as Chairman Chambliss has some great 
responsibility of chairing that committee in the Senate, there 
are many on the issues that will be discussed, and I understand 
that.
    But this one particular issue is hugely important; 
particularly to the three members of the House and, obviously, 
to our Senators as well. And, you know, you talked about 
predictions and El Nino and all that stuff--I can hardly 
pronounce that, and I'm a Georgia Tech engineer and graduate 
from Medical College of Georgia, but I'm going to tell you 
something; I do understand actual versus predicted, and that's 
what Congressman Westmoreland was just talking about.
    You're going to hear from this next panel, and they're 
going to let you know a little bit about actual and the damage 
that some of these rigid rules and regulations inflict on a 
local community because somebody's worried about the sturgeon 
and I don't know what--the snail-guard or mussels we're really 
talking about, but I think the most endangered species that 
we're concerned about is homo-sapiens and the people that live 
in this community and the economic impact and the recreational 
issues.
    And we're just asking for some common sense. And so, 
basically, I--you know, you--I think you've already said it in 
regard to the study. We've heard a lot about earmarks during 
this 109th Congress, and people have been backing up on 
earmarks. I guarantee you one thing; you'll get an earmark that 
all of the members of Congress and Senate that this statement 
will support proudly put their name to it on both sides of the 
aisle because--you know, we've done the study locally. We've 
paid the expenses of doing that, and there is absolutely, 
General, no excuse for not moving forward and doing this in a 
timely fashion because this thing has just drug on far too 
long.
    Now, I don't think I came up with a question at all in this 
speech that I gave, but I wavered my opening statement, so I'll 
sort of include that, Mr. Chairman, in my time. But if you can 
respond to those thoughts, I would appreciate it because I get 
the impression that you're the guy, the brigadier general, 
where the buck should stop at your desk and not necessarily a 
civilian assistant, assistant secretary of the Department of 
Defense, who I don't think is qualified to make the decisions 
as well as you are.
    So we're looking toward you, and we're hoping for a good 
answer. And I'll yield back my time and listen to your 
response.
    General Schroedel. Sir, I can say that, first of all, I'm 
not afraid to make decisions. If they're within my authority, 
I'll make them. And in response to me making the decision and 
the buck stopping with me, I couldn't agree with you more.
    And if I could share, perhaps, on another battlefront that 
I'm facing here within this region--now, my region covers from 
Mississippi all the way to Virginia--in another simple project 
called The Everglades. The norm has been that the folks had to 
go to Washington to get answers. And I've already waited on 
that situation. I was glad to hear from the sponsors when they 
called me back, and said, ``You know, it's nice to know we 
don't have to go to Washington anymore.'' So I will just offer 
that to you as evidence at least in the last few weeks of my 
inclination, which is exactly to do what you've said.
    Mr. Gingrey. Thank you. You're back with The Chairman.
    The Chairman. Well, General, we've laid the challenge out 
there, and we look forward to working with you. There are a lot 
of stakeholders here who have significant interest in all of 
the issues from the end of the Apalachicola as it goes into the 
Gulf all the way north of Atlanta. And we're excited about the 
fact that you're here. And, frankly, for the first time from my 
perspective in the 12 years that I've been working on this, you 
have more inclination to make decisions and to get something 
done than anybody that we've talked to before. So we're glad 
you're here.
    And, again, when you communicate with your son, tell him 
how much we appreciate his service to our country. And we look 
forward to staying in touch with you. Thank you for taking the 
time to be with us, sir.
    General Schroedel. Thanks. If I can make one final request, 
if I can, Mr. Chairman.
    The Chairman. Sure.
    General Schroedel. You and all the people here saying that 
I've established in this region is deeds not words. I've got to 
say to judge me by my deeds, not my words. Thank you.
    The Chairman. We'll set this hearing for a year from now, 
and then we'll give you a grade. How about that?
    General Schroedel. Sir, I'd love it. That's great.
    The Chairman. Thank you very much, General.
    I would now like to ask our third panel, which consists of: 
Mr. Dick Timmerberg, the executive director of West Point Lake 
Coalition in LaGrange; Mr. Mike Gaymon, president and CEO of 
Columbus Georgia Chamber of Commerce here in Columbus; Mr. 
Steve Singletary, vice chairman of Georgia Soil and Water 
Conservation Commission from Blakely; and Mr. Jimmy Webb of 
Flint River Water Council. Jimmy resides in Leary.
    Please come forward and take your places.
    Gentlemen, thank you all very much for taking the time to 
come out and share some thoughts with us today, and we look 
forward to your opening comments.
    I would encourage you to stay within a three- to five-
minute range. This light system we have up here is a little bit 
funky today because the yellow light doesn't work. The green 
light means that you've spoken for four, and you're in your 
four-minute period. There will then be a blank for that last 
minute, but when the red light comes on, it means your five 
minutes is up, and we'd like for you to wind up. All of your 
written statements will be taken in the records. So everything 
that wasn't included will be included.
    And, Mike, what we'll do is start with you. And, Dick, 
we'll go right down the row as far as opening statements in 
order. Mike, welcome. We'll, of course, hear from you now.

 STATEMENT OF MIKE GAYMON, PRESIDENT AND CEO, COLUMBUS GEORGIA 
             CHAMBER OF COMMERCE, COLUMBUS, GEORGIA

    Mr. Gaymon. Thank you, sir.
    Dear Committee Members, it is an honor to have you here in 
the RiverCenter, which is one of our super regional assets. 
This facility came about due to a public-private partnership 
resulting in over $100 million being raised to endow the arts. 
And many--in fact, many of the things in our region are due to 
this partnership where the public sectors work with the private 
sectors to find a win-win, which is what we hope could finally 
happen with the Water Wars, a public-private partnership for 
water.
    Columbus was a planned city. Being on the most northern 
location for river traffic, its very beginning is due to the 
Chattahoochee River. Today, we're more aware and sensitive to 
the importance of the river than we have ever been. Just as the 
20-plus mills that used to depend upon the river for its power, 
we depend upon it even more for drinking, some of our water 
recreation, and certainly, for business needs. When you come 
back next year, you'll see the 2.5-mile whitewater course in 
our central business district. We think this is just another 
example that while--we say we have rediscovered The Hooch.
    In 1992, our city was faced with a major problem of 
Combined Sewer Overflow. Once a plan was developed and 
carefully explained to the citizens, they voted to tax 
themselves to a tune of over 600--$60 million to fix the 
problem. Combined with local funds, over $80 million was spent 
on the $100 million problem. Today, Columbus does not have a 
CSO problem. In fact, we used the opportunity to construct a 
15-mile riverwalk, which is actually a nice covering for a 
gigantic CSO sewer collection system along the river.
    We hold this up as an example of having the political will 
to fix a long-term problem through an innovative and bold 
effort to make it better than it was. In fact, thanks to some 
financial help from the Congress in 1995, we were able to build 
a Combined Sewer National Demonstration Project, which was one 
of the first in the nation that's now being held up as an 
international model for dealing with treatment of wastewater 
solids. I hope it doesn't appear that I'm bragging about these 
accomplishments, but instead, I'm trying to illustrate the 
point that we can be good stewards; not to have to break the 
bank, but it takes a commitment, and it takes partners who are 
willing to find solutions; not just identify problems.
    Unfortunately, some cities in our state and our nation have 
chosen to pay fines or to try a patchwork approach instead of 
being responsible and accountable to take care of their own 
problems. However, in spite of what we've done to fix our CSO, 
it helps us and it helps the people downstream as well. 
Wouldn't it be appropriate or even make sense to require 
everyone using the rivers to do the same? Simply using average 
annual stream flows is questionable as to the adequacy. That 
may be like the man who stuck his head in an oven and his feet 
in the freezer, and on the average, he ought to be okay.
    During these periods, the cost of treatment before a 
discharge occurs could be many times over what it could be and 
should be if minimum flows are met and maintained year-round. 
Frankly, we support growth and development. We're glad that 
other areas of our state and our region are growing, but we 
don't think it should be at the expense of others. There are 
other parts of our state in addition to Lake Lanier and 
Apalachicola who are just as interested in protecting the 
environment while ensuring that the future of our citizens in 
regard to having ample water to sustain their quality of life 
are enhanced.
    For example, more septic tanks that are put in operation in 
our state causes the flow and return to our rivers to be 
impacted. Shouldn't cities and counties with policies, or maybe 
the lack of, of uses versus minimum returns simply be ignored 
regardless of the impact of people downstream? It probably 
sounds too simple to ever work. Maybe that's part of the 
problem. We've made it too complicated.
    Imagine--or some might say hallucinate--with me for a 
moment. What would happen if every user were required to do the 
following two things? Put back at least 90 percent of what's 
withdrawn on an annual basis back into the rivers and return 
what's put back cleaner than when it was withdrawn. If every 
user had to adhere to these two items, everyone upstream and 
downstream the rivers would have plenty of water to drink and 
play on, while still ensuring environmental issues were also 
taken care of. This would not pit one city against another city 
or another state against another state. Instead, each would be 
forced to adhere to the two rules that everyone withdrawing and 
discharging would operate and live by. If it were that easy, 
perhaps it would have been fixed a long time ago. But does 
anyone here think it's ever going to get any easier?
    We applaud your interest in this area. We thank you for 
coming to Columbus to--for this hearing, and we look forward to 
the leadership in what we think is one of the most vital 
aspects of our future; sustainable water standards.
    Thank you.
    [The prepared statement of Mr. Gaymon can be found on page 
59 in the appendix.]]
    The Chairman. Thank you Mike, Dick.

 STATEMENT OF DICK TIMMERBERG, EXECUTIVE DIRECTOR, WEST POINT 
               LAKE COALITION, LaGRANGE, GEORGIA

    Mr. Timmerberg. Thank you, Mr. Chairman. Members of 
Congress, guests, Brigadier General Schroedel, nice to meet 
you.
    Before I actually start, we did submit the pictures, which 
the Chairman referred to earlier. And, General, we would take 
issue on how successful that plan is, as much as I hate to say 
it. But when you see those pictures later, I think you will 
concur with us that it has not been real successful.
    I would like to emphasize up front, though, that we have an 
excellent working relationship locally with the Corps at the 
West Point Lake project and tremendous respect for their 
commitment and dedication to the lake. We've partnered with 
them on numerous projects; life jacket loaning programs, annual 
lake cleanup, solar buoy lights, to name a few. Regrettably, we 
do not have the same level of respect for the management 
practices employed by the Mobile District. And while I'm going 
to emphasize the management practice, there are a lot of fine 
people and we have some excellent relationships with Mobile, 
but we do challenge the management practices that are employed.
    The Congress of the United States authorized West Point 
Lake in 1962 for five purposes: Hydropower; fish and wildlife 
recreation, i.e., sport fishing and wildlife; general 
recreation; navigation; and flood control. I would like to 
briefly address only two of these since the mussel and sturgeon 
and endangered species have been addressed previously.
    Regarding recreation, West Point Lake is the first Corps of 
Engineers lake in the country to be specifically authorized by 
Congress as a demonstration recreation project. I want to 
repeat that; a demonstration recreation project. Yet, 
recreation is the one authorized purpose most consistently 
ignored and undervalued by the Mobile District.
    In the District's own documents, specifically, Appendix X--
F, Section 5, on recreation, they state the first and second 
recreation impact levels at 633.5 and 632 MSL respectively 
versus a full pool of 635. In a local West Point Lake document, 
the recreation impact levels are listed at 632.5 and 629. 
Obviously, there should only be one set of numbers. 
Realistically, we believe the more accurate numbers are 
somewhere in between.
    Consequently, on the 28th of November in '05, we submitted 
a recommendation based on current conditions that said these 
numbers should be 632.5 for the first level and a minimum of 
630 for the second. Mobile never responded to that 
recommendation. Recreation impact levels are critical because 
they equate to economic impact levels. West Point Lake is 
conservatively estimated to have an annual economic impact of 
225 to $250 million on its neighboring communities. These 
numbers do not include the economic potential that the lake was 
maintained at a safe, stable winter pool level of a minimum of 
630.
    General, you referred to the 17 percent visitation. I 
wouldn't visit the lake right now, and I live within position 
of 10. Our position is if it was a safe level, people would 
visit the lake all year-round because we have the climate to 
support that visitation. And actually, when we looked at the 
study, there would be about a 24 to $28 million economic impact 
because of the increased visitation.
    Basic historical data; winter flooding is not and has not 
been the issue. The flood of record, as Congressman 
Westmoreland stated, occurred in May of '03 when the lake was 
at full pool. We had 11 to 15 inches of rain unforecasted, and 
due to a great job by the Corps, the lake went up six feet, but 
there was no flooding or certainly no major flooding.
    We contend Mobile should provide the public a safe winter 
lake level at a minimum 630 to enjoy the authorized purpose of 
recreation 12 months a year. A 628 level is an unsafe surface. 
There have been numerous boating accidents resulting in huge 
repair bills and personal injuries, and we believe it's just a 
matter of time before one or more people are killed due to the 
unsafe lake level.
    Additionally, the fluctuating lake levels caused tremendous 
soil erosion and sedimentation due to a vast number of exposed 
areas with shoreline; 5,249 acres to be exact in the 628 level 
are 20 percent of the surface area of the lake. Water storage 
capacity is being reduced daily, water turbidity is increased, 
and treatment costs to provide clean, safe drinking water are 
likewise escalating.
    Finally, the economic value of the lake is grossly 
underutilized. Since its authorization, sport fishing and 
wildlife, along with general recreation, has increased 
exponentially in value and now dwarf the other authorized 
purposes. Our communities are suffering economic losses due to 
unsafe and unsatisfactory winter lake levels below 630. 
Furthermore, our ability to recruit industry and jobs suffers 
tremendously when we have to keep people away from an 
unrealistically low lake.
    Conversely, a stable and dependable West Point Lake would 
be a recruiting magnet. We don't even know the economic 
potential of West Point Lake due to current and past management 
practices. However, a drive around Lake Lanier proves the 
economic potential is phenomenal if the management practices 
provide us the opportunity to realize it.
    Georgia's population continues to grow, and there will be 
continuing increasing demands. The Mobile District practice 
needs to provide fair and equitable distribution of water the 
low state over. One major part of the solution to meet these 
increasing demands is to increase actual storage, not storage 
potential; more and more storage water. Take advantage of 
winter rains to increase storage is a win-win for all parties. 
Higher lake levels for recreation, higher lake levels for 
hydropower, and more water available for downstream needs.
    We respectfully ask that our Senators join with our 
Representatives and other members of Congress and insist that 
the Corps follow your Congressional authorizations. In lieu of 
this and assuming the Mobile District can and will continue to 
ignore Congress' directives, we ask that our Senators and 
Representatives introduce and pass legislation which mandated a 
minimum 630 winter lake level.
    The communities and stakeholders around West Point Lake 
have needlessly suffered too much economic harm already. We've 
been dealing with this issue for over six years; six years when 
the majority of rational people agree this is the right thing 
to do, and the science supports it.
    We sincerely appreciate your time and this opportunity and 
ask your support to finally bring this issue to a positive 
resolution prioritizing the most valuable authorized purposes 
of recreation and maximizing the economic potential of West 
Point Lake for the community and the individual lakefront 
stakeholders.
    Thank you.
    [The prepared statement of Mr. Timmerberg can be found on 
page 68 in the appendix.]]
    The Chairman. Thank you Dick, Steve.

 STATEMENT OF STEVEN SINGLETARY, VICE CHAIRMAN, GEORGIA SOIL & 
        WATER CONSERVATION COMMISSION, BLAKELY, GEORGIA

    Mr. Singletary. Good morning. My name is Steve Singletary. 
I'm a southwest Georgia farmer, supervisor with the Flint River 
Soil & Water Conservation District, and vice chairman of the 
Georgia Soil & Water Conservation Commission. I'm pleased to be 
here today not only representing Georgia Soil & Water 
Commission but the Flint River District, which is directly 
impacted by the results of this hearing because of areas that 
we cover.
    For 60 years, this Conservation District has played an 
important role in making local leaders make decisions regarding 
the use of natural resources. The 40 districts across the state 
are an active partner in the delivery of federal, state, and 
local conservation policies and programs.
    Mr. Chairman, I want to personally thank you for holding 
this hearing today in Columbus and for including conservation 
issues on the agenda. I fully understand much of today should 
be focused on the Corps of Engineers' operation of local river 
basins; however, I'm pleased that you and the Committee 
understand the value and importance of ag water conservation.
    Conservation programs have grown over the last decade to 
now represent significant funding and meaningful technical 
assistance to farmers and irrigators. This commitment allows 
farmers to not only protect our soil and water but to be better 
neighbors and citizens. Row crop producers in southwest Georgia 
have benefited from irrigation management cost share and 
incentives promoted by current conservation programs resulting 
in better management of land and water. While we get other 
support from commodity programs, the conservation tools, both 
technical and financial, have helped avoid regulations and 
promote more profitability in an ever-changing farming 
environment.
    I know my time is limited here. I don't want to leave you 
with several thoughts regarding water conservation programs 
that the Georgia Soil & Water Conservation Commission offers to 
assist producers. The first program I would like to mention is 
the Ag Water Conservation Initiative Irrigation Reservoir 
Incentive Program, better known as the Pond Program. This 
program provides cost share assistance to land owners to help 
offset the cost of either renovating or--an existing pond or 
constructing a new impoundment. This containment structure 
catches off-season water that would be lost and provide a 
source to augment surface and ground water supplies. Key 
partner in this program is the Natural Resource Conservation 
Service who provides technical assistance to ensure that 
construction is completed in a sound manner.
    The Commissions Mobile Irrigation Lab provides a service of 
evaluating uniformity of water distribution under pivot civic--
center pivot irrigation systems. As systems age, water 
distribution may change. In many cases, irrigation is scheduled 
when a portion of the field is stressed by hot and dry 
conditions, and if water is not applied uniformly, this portion 
of the field may need to be irrigated and the rest of the field 
doesn't require water.
    A Mobile Irrigation Lab audits--Mobile Audit Lab quantifies 
how uniform water is supplied. Results of this field test 
include a graph showing the uniformity of the pivot system at 
pivot and proceeding down the system toward the end, an 
accurate application chart from a verified--from a field speed 
and water flow test and a detailed report showing leaks and 
needed repairs. If uniformity results are poor, cost share 
assistance is offered to the producer to retrofit the nozzle 
package to improve the water application uniformity.
    Through the use of GPS technology and aerial imagery, this 
program has helped identify off-site water applications from an 
end-gun and will provide cost share assistance to equip the 
systems with an end-gun shutoff device when water is thrown on 
the public roadways or irrigation is applied to more than one 
acre of non-productive land.
    The Commission is also implementing the first statewide 
effort to measure ag water use. House Bill 579 passed by the 
General Assembly and signed into law by the Governor Perdue, 
mandates that the Commission oversee the purchase, 
installation, maintenance, and collection of data from meters 
on all Environmental Protection Division permitted to ag 
withdraws. This program inventories pump sites using GPS 
technology to record their location and causes a meter to be 
installed on these sites. Annual water use data is obtained and 
along with irrigation water is applied--area that irrigation 
water is applied to and the cropping history from these sites.
    The Commission works with irrigators to improve their 
understanding of how this state supposed state sponsored on-
the-farm management tool can assist them in improving 
irrigation efficiency and help identify pumping problems. A 
state-sponsored interactive website will be produced to provide 
producers with an opportunity to review personal water use and/
or provide comments on changes to irrigation systems for their 
cropping history.
    The last program I'd like to highlight is the Irrigator Pro 
Ag Water Conservation Incentive Program. Through this 
corporation--cooperative effort with the National Peanut 
Research Lab, producers are given an incentive to use a 
computerized irrigation scheduling tool. For the crops of corn, 
cotton, and peanuts, irrigators can track crop water uses and 
target irrigation events to match these needs.
    Commission's goal of these conservation programs is simple. 
It is to supply producers with tools and knowledge that they 
need to use water wisely and efficiently. The Pond Program 
provides additional water. The Irrigation Lab ensures it's 
applied uniformly. The metering programs measures what's used. 
And the Irrigator Pro matches what is applied to the needs.
    Thank you.
    [The prepared statement of Mr. Singletary can be found on 
page 66 in the appendix.]]
    The Chairman. Thank you Steve, Jimmy.

  STATEMENT OF JIMMY WEBB, FLINT RIVER WATER COUNCIL, LEARY, 
                            GEORGIA

    Mr. Webb. Mr. Chairman, Senator Isakson, Congressman 
Westmoreland, Congressman Bishop, and Congressman Gingrey who's 
gone, it's my honor to be here before you today.
    Steve and I are tied pretty tight together as farmers 
locally. A lot of the ideas that he just discussed with you 
were born with the Water Council, and the Soil & Water 
Commission have carried them on.
    I offer my testimony from the perspective of dependence. 
Certainly, my livelihood, and to a great extent, the livelihood 
of all of my southwest Georgia neighbors, is dependent on our 
natural resources for irrigation. I'm a fourth-generation 
Calhoun County farmer whose operation consists of 2,500 acres 
of peanuts, cotton, and corn. We began irrigating--not me, my 
forefathers--in 1971 and continued to invest in irrigation 
hardware and infrastructure until our entire row crop operation 
could benefit from supplemental irrigation.
    Over the last 35 years, we've also made great strides in 
areas of water conservation. We practice conservation tillage 
on most of our acreage, have replaced old inefficient systems 
with uniform low-pressure pivots and made use of the latest in 
irrigation scheduling research to ensure the most efficient use 
of our water resources as possible. Furthermore, given the cost 
of energy, pumping unnecessary amounts of water is one practice 
that would guarantee the fourth generation would never be able 
to pass down to the farmer of the fifth generation. For the 
Webbs and most of the farmers in southwest Georgia, irrigation 
is not a luxury. It's a business necessity that drives the 
largest sector or our regional and state economy.
    I understand the purpose of this hearing is to discuss the 
Corps of Engineers' operation of the ACF River basins and their 
efforts and the effects on Georgia's agriculture. To date, the 
high-profile actions recently taken by the Corps on the 
Chattahoochee River have not directly affected my operation 
given my location in the Flint River basin. However, every 
action and decision concerning management of the ACF is of 
interest to me for one very simple reason; I suspect that 
Florida does not care if their minimum flow demands in the 
Apalachicola are met with water from the Chattahoochee or the 
Flint Rivers.
    Up to this point, ACF discussions have focused mainly on 
the Chattahoochee, but it is possible, if not probable, that in 
the near future, an attempt to squeeze more water from the 
Flint Basin could be made in order to meet some target flow. 
The biggest loser if such a scenario would play out would no 
doubt be Georgia agriculture.
    The lower Flint contains the greatest concentration of 
irrigated acreage in the state. These row and forage crops 
translate into roughly $700 million in Farmgate value and 
contribute significantly to the $5.8 million in direct and 
indirect output from agriculture and related businesses in this 
small corner of Georgia.
    I can personally attest to the ripple effect caused by 
irrigated production through my partial ownership of a cotton 
gin and a peanut-buying point. Without the investment in 
irrigation technology by southwest Georgians, three of the 
first seven years in this century, including 2006, would have 
ended in complete disaster not just for producers, but for an 
economy that depends on our ability to access our water 
resources. Unfortunately, farmers as a group have not been as 
proactive as perhaps we should have been when it comes to 
discussions on water plan and policy.
    As a charter member of the Flint River Regional Water 
Council and an appointee to the Basin Advisory Committee for 
the Flint River Basin Regional Water Development and 
Conservation Plan, I consider myself fairly well-versed in 
water policy issues. It is with this knowledge that I can fully 
appreciate the complex and difficult process of equitable water 
allocation among competing uses.
    At the same time, it's my experience as a farmer that 
realizes the greatest potential threat to our way of life is 
uncertainty regarding access to water. Serious questions with 
serious concerns loom over both the inter and intrastate water 
concerns facing Georgia.
    Questions such as: What kind of impacts are possible with 
the U.S. Fish & Wildlife now designating all of southwest 
Georgia critical habitat for several endangered mussel species? 
I want to add one thing to that from what Congressman 
Westmoreland and Congressman Gingrey said. If this is imposed, 
at what point would I be considered an endangered species? I do 
wonder a lot of times if those endangered species are driving 
the train.
    Does my state-issued irrigation permit effectively negate 
my right to reasonable use as a riparian? If I'm forced to 
reduce my water use, what basis will be used if our permits are 
not tied to any withdrawal amount? The bottom line is: We as 
irrigators must have clarity in our rights to access in times 
of water scarcity, whether naturally occurring or imposed by 
some government regulation.
    Production agriculture in 2006 is a venture filled with 
great risk but also some reward. One risk that we as producers 
cannot endure would be the arbitrary interruption, for whatever 
reason, of our ability to irrigate. We must remain at the table 
as the decisions are made in the near future will have lasting 
consequences.
    I appreciate the Committee's recognition of the importance 
of agriculture and my opportunity to share some of my concerns 
with you. And I'd be happy to ask answer any questions you may 
have.
    [The prepared statement of Mr. Webb can be found on page 89 
in the appendix.]]
    The Chairman. Well, thank all of you for your excellent 
testimony. And, again, let me just say that your entire 
statement will be put in the record.
    Mike, I'm going to start with you. What effect does an 
adequate supply of water have upon the economic development of 
Columbus and Muscogee County?
    Mr. Gaymon. Well, Senator, as you know, we have a regional 
economic development organization known as The Valley 
Partnership, which covers six counties and three overseas, and 
it has significant part. I mean, without water, obviously, 
there will be no growth. And as you know, this part of Georgia 
needs all the help it can get.
    As I said, we are for growth and development of other 
parts, but we don't think it ought to be at our expense. So 
water is critical. We must have water for drinking. We also 
must have water, obviously, for discharge back into the river. 
I mean, it's a major part of the very reason why we're here, 
and I think our future is absolutely tied to it.
    The Chairman. We are very pleased that the conclusion of 
the last base closure round to see that Fort Benning was going 
to be gaining about 10,000 soldiers over the next several 
years, and we're going to see the movement of the armor school 
from Fort Knox down here as well as some other assets to Fort 
Benning.
    While all of that is well and good, it's going to bring not 
just 10,000 soldiers; it's going to bring their families, it's 
going to bring lots of civilians in addition to that. It's 
going to bring a lot of government contractors into Columbus.
    From a water supply standpoint, are we prepared to meet the 
needs at Fort Benning and the ancillary folks that it's going 
to bring into our area?
    Mr. Gaymon. Capacity-wise, Columbus Waterworks has excess 
capacity of water and sewer, but obviously, our challenge is 
for this region, and that's why we've got to make sure that we 
continue to make sure that we provide the water and sewer needs 
for this region.
    Right now, it's a question as to whether we'd be able to be 
able to provide water and sewage in the outlining areas if each 
county and each area decided to do its own thing, so to speak. 
So we think that regionally is the way we have to do with that 
the water and sewer.
    When you're talking about 33,000 people moving to this 
region--you participated in the Kia announcement. I know 
several of you were there. What's about to happen at Fort 
Benning is three times the size of Kia. That is tremendous. And 
we've got to make sure that we have ample water and sewer 
available for this growth that is going to happen; not what 
might happen; we know it will happen, so we've got to make sure 
we're ready. And that's why we're applauding this hearing, and 
we thank you for taking the proactive stance because the future 
of our region depends upon it.
    The Chairman. Lastly, we know that water flow is critical 
to the utilization of the port in Columbus. How important from 
an economic standpoint is the Port of Columbus to this area?
    Mr. Gaymon. It's lost some of its importance, Senator, over 
the years. Obviously, if you can't commit to whether you're 
going to be able to have enough water for the draw to bring 
barges up, it's chicken and the egg. You won't have barge 
traffic if you can't commit that there'll be water to float 
those barges. And without any uncertainty, knowing whether you 
will or whether you won't, obviously, the barge traffic is not 
nearly as it used to be simply because of reliability.
    You know, you can't tell folks that you can ship up and 
ship down. Obviously, you'd be questionable as to whether you 
can put a barge on the river and nobody really knows, I think, 
as to those small windows of opportunity for shipping 
equipment.
    The Chairman. Dick, when you talk about achieving minimal 
winter water levels, in order to achieve that, is it necessary 
to draw down more water from upstream or keep more water from 
flowing downstream to accomplish this or both of the above or 
neither of the above?
    Mr. Timmerberg. Basically, we like to refer to it as free 
water because it's the late fall and winter rains. And no one--
at least now in the Tristate Water Wars--is competing for that. 
I think we all understand now with the IOP that that 5,000 is 
historically what's been done. So the flows have been augmented 
above that because of the appearance to the rural curve at the 
reservoir. So when water's coming in, we can easily store that 
water.
    Last winter, had we, in fact, stored it, the drought still 
would have happened, but would the results have been this 
severe and as early? No, they wouldn't have; not with another 
two feet of water, which again is approximately about 42,000 
acre feet of water that would have been available had we just 
stored it when we had the opportunity.
    The Chairman. So from your historical perspective, once we 
reach an adequate level from a wintertime standpoint, it can be 
controlled with the normal inflow and outflow again that you've 
seen historically without lowering the level?
    Mr. Timmerberg. Correct.
    The Chairman. Steve, what role does your organization play 
during drought years when the rainfall is scarce and more 
producers need to depend on irrigation? And secondly, earlier 
this year, there were folks around the state who were under 
water restrictions due to drought conditions; do agriculture 
producers have to abade the water restrictions?
    Mr. Singletary. What's that last part?
    The Chairman. Do agriculture producers have to abide by 
these water restrictions?
    Mr. Singletary. No, sir. They don't have to abide by the 
water restrictions; however, they do use some of the tools that 
have been provided, such as the Irrigator Pro computer model 
that work to reduce the amount of water they can use by 
matching the actual needs of the crops to water instead of 
producing--put the number of what he needs to do. We have 
instruments in the field that take measurements to tell us when 
the crop actually needs the water, so that produces it.
    With the programs to retrofit irrigation systems, we're 
increasing the efficiency or uniformity and getting better use 
of the water we're using; therefore, being able to use less 
because we're doing a better job of applying what we need. With 
the meters, it allows us to know what we are using and do a 
better job of doing that management at the time.
    The Chairman. Jimmy, you mentioned in your testimony that 
your farm consists of 2,500 acres of irrigated commodities. 
What's your source for that irrigation?
    Mr. Webb I am a surface water irrigator, and that's 
probably why this is so important to me.
    In the Chattahoochee region here, they have about 70,000 
acres of irrigated land. In my county alone, we have 37,000 
acres of irrigated land. The majority of my county is irrigated 
by surface water. That surface water eventually ends up in Lake 
Seminole and ends up in Florida. That's why it's very important 
to me.
    As a surface water irrigator, we have become very efficient 
by using the programs that Steve was talking about. A lot of--I 
think a lot of the public perspective is that, a lot of times, 
we pump unnecessarily. With these programs that we have, the 
computer models, we pump only when necessary and only when we 
absolutely have to.
    And it's made--believe it or not, it has made my yields go 
up because I was watering a lot of times on my own at the wrong 
time, and it would hurt my crop. And now, with these programs, 
I'm much more efficient with the water and making a better 
yield.
    The Chairman. What's been the economic impact of the 
expanded use of irrigation by agriculture producers over the 
last decade?
    Mr. Webb. I couldn't tell you the answer to that one.
    The Chairman. Well, I don't mean in dollars, but if you had 
not had the asset of an irrigation system on your farm versus 
having the farm all dry, again, what's done from an economic 
impact on southwest Georgia?
    Mr. Webb I think I would be out of business, especially for 
the first few years of this century. What it has done is 
stabilized our income. We know that we're going to have a crop 
every year. We're going to have some type of production. 
Stability in your income, stability in your economy, stability 
in your tax base of southwest Georgia.
    The Chairman. Senator Isakson.
    Senator Isakson. Mr. Timmerberg, I want to take a couple of 
your points and try and amplify them, if I can.
    Number one, I thought the General's comment with regard to 
17 percent of the usage of visitation took place during the 
four winter months; I think you hit the nail on the head when 
you said because of the low pool, that reduces the visitations. 
It's not reflective of the lack of use because the climate here 
is temperate, with fishing and many other forms of recreation 
are year-round.
    To that end, as I understand it, when the lake was 
originally authorized, it was authorized at 625 feet. That was 
raised in the 1980s when they did the amended plan to 628. And 
in 2003, the Corps, on its own, raised the winter pool to 630 
and then subsequently reduced it. Do you know why it was raised 
to 630 in 2002 and then why it was reduced?
    Mr. Timmerberg. Yes. We made a recommendation of the 
district engineer at that time based on the economic harm as 
well as the economic potential of having the lake at a safe 
winter level pool of 630, and the district engineer at that 
time granted a one-year waiver both in '02, '03, and '04. And 
we've even looked back at that as a three-year test run, and 
obviously, there were no serious repercussions from that 630 
lake level.
    In '05, the district engineer stated that he was returning 
to the broad--and rural curves and that the lake would be 
managed according to those curves.
    Senator Isakson. I understand in the three-year test, it 
demonstrated no difficulties?
    Mr. Timmerberg. Correct. And if I can, Senator, just a very 
recent example. Saturday--when we talked about winter 
visitation--there was a bass tournament Saturday out of 
Highland Marina & Resort; charity tournament that benefit 
Children's Healthcare of Atlanta. It had been advertised for 
six months heavily in the Atlanta area. Anybody that was here 
Saturday was at Fall Chamber of Commerce Day. It couldn't have 
been better. Seven boats showed up for that tournament, after 
six months of advertising. Because, again, in my opinion, 
people cannot rely on a safe lake level.
    Senator Isakson. Mike, I want to just commend Columbus and 
Muscogee County. Your water authority people, waste water 
people, have visited me on numerous occasions that what you all 
implemented in '96 and have executed is nothing short of 
breaking the Pine sewer outfall as well as your water 
management.
    And your recommendations about returning 90 percent of what 
you use back in the watershed is exactly the type of thinking 
we need in municipal and county government because every time 
we put water in the septic tank, we're taking it out of the 
watershed, so to speak, and every time we're treating it, we 
can put it back in the watershed, and then it's a higher 
problem when it's taken out.
    Those management practices of what Columbus is doing is 
extremely admirable. And I just want you to know that. It's 
well-noted by all of us in Congress.
    Mr. Gaymon. Thank you, sir. And our Columbus Waterworks, 
they are in the leading edge, but we're just looking for 
partners. We're not asking you to do it for us. We're just 
saying, ``Work it with us, and we'll find a way to make it 
work,'' and I think that's exactly what we're trying to do.
    Senator Isakson. Now, Jimmy, I've got a question for you. 
And this is not my origination, so I'm asking it on behalf of 
the staff sitting here behind me, so if I mix up the 
terminology, you just blame me.
    Since 2006 has been a very dry year, has there been a 
noticeable difference in crop yields with your use of 
conservation tillage versus condition?
    Mr. Webb Yes, sir. The biggest difference was the fact that 
in my conservation and tillage is irrigating. We've been 
pleasantly surprised at what our yields are under irrigation. A 
lot of the dry-land people in our area have destroyed their 
crops. They did not make any crop at all. And the irrigation 
has made a tremendous difference.
    And the conservation and tillage, what it does is the water 
will stay there longer. It doesn't evaporate as quickly. So, 
therefore, it's helped us stretch our waters out. And with 
these tools we have, we don't have to come back as quick as we 
used to by using conservation tillage.
    Senator Isakson. And isn't it fair to say--particularly 
looking back over the last 10 years--that had it not been for 
irrigation, the ag industry basically in this part of Georgia 
would have been wiped out given the weather patterns?
    Mr. Webb Yes, sir. I thought about one other thing to 
answer Chairman Chambliss' question is: In the last 10 years, 
you see less and less dry-land farms and more and more are 
going to irrigation. The dry-land farms have been planted in 
the CRP programs and has turned them into recreational tracks 
that--under a type land, and it's--it's no longer being used 
for production agriculture; mostly just all irrigating now.
    Senator Isakson. Notwithstanding the higher cost of 
petroleum and spilled, and something you've just almost got to 
deal with staying there?
    Mr. Webb Yes, sir. You have to. If you want to produce a 
crop, you have to have some water.
    Senator Isakson. Thank you, Mr. Chairman.
    The Chairman. Congressman Bishop.
    Mr. Bishop. Thank you. I'd like to thank the panel for your 
comments. I think they all will be extremely helpful in 
instructing to us and to the Corps.
    With respect to Mr. Webb and Mr. Singletary, I don't have 
questions for you. We are very, very intimately involved in the 
agriculture and the water needs there, but I just want to take 
this opportunity to commend you for your organizations' 
perseverance and your insight in being able to address the bad 
rap that has been put on south Georgia agriculture for pumping 
out all of the water and not allowing that water to flow down 
into Florida and being part of the problem for the shortage of 
water. I think that the practices that you've utilized and the 
research with the quantifying ag needs and actually quantifying 
ag usage and fine-tuning the irrigation process, I want to 
congratulate you on being able to improve your yields with 
that.
    I think it has made a big difference, and it also gives us 
ammunition in Congress when we have to deal with the people who 
are not commended with how much or how little irrigation you 
have to do and the impact it has on water control. And I want 
to commend you for what you've done to help educate us and 
educate--and give us the tools that we need to be able to 
protect that usage.
    With respect to Mr. Gaymon, I want to just ask you if you 
could sort of just emphasize with regard to economic 
development how important the water flow is on the 
Chattahoochee-Apalachicola River way with regard to the 
development plans that you have here in the Columbus area from 
here south, particularly with regard to what is planned with 
the Infantry Museum or Armor Museum, the marina plans and how 
increased water flow, raising the water levels, such as the 
lake, and allowing the water levels to increase as it comes 
down downstream; how that would affect the government plans for 
the marina, the Infantry Museum, and all of these communities 
right down--right in the Chattahoochee River way?
    And also, I want to comment that--there were comments made 
about the barge traffic, the Port of Columbus. But we do have 
another port south of Columbus, and that's the Port of 
Bainbridge, which is also in my Congressional District, which 
is probably in more need of navigable water than in--than 
perhaps we need here in Columbus.
    So I do want the General to be cognizant of the fact that 
Bainbridge is a port and, of course, that could be a tremendous 
economic impact there if that water flow was consistent of the 
barge traffic there.
    But if you have a comment on the economic government plans, 
I'd appreciate that.
    Mr. Gaymon. Yes, sir. Thank you, Congressman.
    We think there's ample water, but not--as I understand, we 
think there's a sufficient supply of water to be able to take 
care of our current and future needs, but not at all costs.
    You know, when flows get down very low, it's not just the 
number of water that we need for drinking; it's also what 
happens with being able to treat it before you discharge back 
into the river, which ends up costing everyone a lot more money 
than perhaps it would have if certain flows were maintained.
    It's a big political issue. We understand that. I mean, you 
guys, that's why you're there. And you're there to fix it, if 
you will, working with a lot of folks. But our future is 
dependent upon being able to have an adequate supply of water. 
We will put back into the river; clean the water that we take 
out. We will be good stewards. I think we've shown to be good 
stewards. We have permits to withdraw over 90 million. We 
withdraw some around 60 million.
    So we're being good stewards, but we're looking out 10 
years from now, 15 years from now, when this region grows--and 
we think it certainly will. Senator Chambliss has already 
mentioned the growth with Fort Benning, and with Kia at West 
Point and so forth.
    So we think that it's important what we do today to take 
care of our future. Our future is tied to that river. Without 
the river, we will not be a city. And without this city being 
the hub of this region, I'm not sure what we'd become. I don't 
think it would be anything any of us would be proud of. So it's 
absolutely essential.
    But we think there's an ample supply. It's a matter of just 
maintaining that ample supply so that we'll be good stewards, 
and we want everybody upstream and we want everybody downstream 
to be good stewards as well. Don't punish us because another 
area is growing. You know, let us be good stewards like we want 
everyone else to be good stewards.
    Mr. Bishop. Okay.
    The Chairman. Congressman Westmoreland.
    Mr. Bishop. Thank you. And, Mike, let me say that from all 
of us, no flack from any other city can, but Columbus is a 
great example of how public-private partnerships work. I think 
this facility, your CSO plan where you voted to tax yourself to 
do that is a important thing that I think we have to consider 
that you are trying to do what you said; put that water back in 
cleaner and to be a good steward of the water, unlike some of 
the cities that--maybe north of us up around the Atlanta area.
    But it's kind of what Senator Chambliss said would--do you 
have any dollar amount of what the impact is on that flow? 
Keeping that flow right because of the mills, because of the 
recreation, because of your draw in the dependency, I guess, on 
that river valley partnership?
    Mr. Gaymon. I'll give you one quick number. We mentioned 
Fort Benning. The Columbus Waterworks now has a contract to 
provide water and sewer at Fort Benning. If they can't provide 
that, we're talking about over $3.2 billion in new growth and 
development that is in this city.
    But we're talking about our very livelihood. I mean, if 
we're not able to provide water to Talbot County, to 
Chattahoochee County, to this region, we think those counties 
are going to continue to be very, very rural, and they need 
jobs. I mean, they deserve an opportunity for jobs as well, and 
we think our best hope for that is to make sure the water and 
sewer for this region can be taken care of; not just today, but 
we're talking about years from now, and we've got to protect 
it.
    And it's not that we don't think it should be at an 
expense. We want Atlanta to grow. Thank goodness it remains 
growing. But we won't be able to grow, and this region deserves 
the opportunity to grow as well, and if adequate supplies of 
water are not in the river, we have no choice. We will not be 
able to reach our potential, and that's where we think the 
biggest challenge lies.
    Mr. Bishop. Well, I want to ask you a question. I don't 
mean to put you on the spot. But just as a common-sense thing, 
do you think that you would have a better chance of keeping 
that river flow constant if you had more water upstream or less 
water upstream?
    Mr. Gaymon. I think, certainly, the more water that's 
upstream that is coming down gives all of us an opportunity to 
grow and develop. And that's why we're applauding you guys for 
being here and saying we're going to be good stewards. That's 
what we want. We don't think it ought to be we grow and you 
don't; tag, you're out. I mean, I don't think that's being good 
stewards of the God-given natural resource that we all must 
protect.
    Mr. Bishop. Well, I think it's good the comments you made 
about the barge traffic because if we keep that river flowing 
consistent, then we have a better opportunity of keeping that 
consistency where it needs to be if we have more reserve 
upstream to keep it.
    Mr. Timmerberg, to your knowledge--and here, we're going to 
get back to, General, some facts, maybe, rather than 
predictions. Do you know of a winter flood event that has 
happened since West Point Lake had been impounded?
    Mr. Timmerberg. Since the lake became impounded, no, I do 
not know of a significant winter flood event. Saying if the 
flood event occurred in May of '03, and that's when the lake 
was at full pool, to begin with.
    And, again, you're talking about common sense, sir, and so 
at 635 and the flood of record went up six feet from 635 to 
641; no significant downstream flooding. At 630 winter pool, if 
that same flood of record hit, we would only be one foot over 
what would be normal full pool. Common sense and science, as 
mentioned, we provided a study to try and facilitate the 
process, and it's glad to hear the General stating they would 
be willing to look at that again.
    Mr. Bishop. Well, Dick, I think science is a word we don't 
use enough of. We're in this weather and predictions and 
history and use science.
    But, Mr. Webb and Mr. Singletary, I just have a request for 
you all. Thank you for what you do. If you ever see any Georgia 
farmer who needs to be on the Endangered Species Act, would you 
let members of this panel know because it's bad enough to have 
a country that's dependent on farm oil, and we certainly, 
certainly cannot afford to be dependent on farm flu. So I would 
ask and request that of you.
    Mr. Webb Yes sir.
    Mr. Singletary. Be glad to.
    The Chairman. I think if we look at the recent poll 
numbers, members of Congress are on the Endangered Species Act.
    Gentlemen, thank you very much for taking your time out of 
what we know again are busy schedules to come here today to 
give us very valuable input. We appreciate the opportunity to 
dialogue with you.
    General Schroedel, thank you again for your attendance and 
for your willingness to jump into this with both feet early on. 
We look forward to you working with us as well as these 
gentlemen and others.
    And let me say to our audience out there, we thank you for 
taking time to come. As Senator Isakson and I have both 
mentioned, we had a hearing in Gainesville. We had a huge 
audience up there, and we had a lot of participation. And 
without you being here to express your opinions, to hear what's 
going on here, we would not know what the real needs of this 
area are. So to each and every one of you, I thank you for 
being here.
    As I mentioned before you will have the opportunity to have 
your own personal input if you do not feel like your views were 
expressed here today. If you're interested in providing a 
written statement, the record is going to remain open for five 
business days. If you will please visit the Agriculture 
Committee's website at www.agriculture.senate.gov, you can get 
additional details, or you can see any of these staff folks who 
are sitting behind us here to get that website address.
    Again, to the folks here at the RiverCenter, thank you for 
hosting us in a magnificent facility. And for those of you who 
haven't heard, we want to see this auditorium filled and Mike 
Gaymon does a song and dance on Friday night. It's a terrific 
facility, Mike. Columbus is extremely fortunate to have this 
type of facility.
    Thank you all very much for being here. This hearing is now 
concluded.
    [Whereupon, at 12:11 p.m., the hearing was adjourned.]
      
=======================================================================


                            A P P E N D I X

                            October 24, 2006



      
=======================================================================

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]



                                 <all>
</pre></body></html>
